No.
IN THE

Supreme Court of the United States
MARK SILGUERO AND AMY WOLFE,
Petitioners,
v.
CSL PLASMA, INCORPORATED,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit
PETITION FOR A WRIT OF CERTIORARI
ALLISON M. ZIEVE
SCOTT L. NELSON
PUBLIC CITIZEN
LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
(202) 588-1000
BRIAN EAST
LIA DAVIS
DISABILITY RIGHTS TEXAS
2222 West Braker Lane
Austin, TX 78758
(512) 407-2718

SASHA SAMBERG-CHAMPION
Counsel of Record
MICHAEL G. ALLEN
RELMAN, DANE, & COLFAX PLLC
1225 19th Street NW, Suite 600
Washington, DC 20036
(202) 728-1888
ssamberg-champion@
relmanlaw.com

Attorneys for Petitioners
November 7, 2019

i
QUESTION PRESENTED
Title III of the Americans with Disabilities Act
bars disability discrimination by any covered “place of
public accommodation.” 42 U.S.C. § 12182(a). The
Third Circuit and the Tenth Circuit have held that a
plasma donation center is such a “place of public
accommodation,” and, therefore, may not discriminate
on the basis of disability. The Fifth Circuit, however,
has held that a plasma donation center is not a “place
of public accommodation.”
The question presented is:
Is a plasma donation center a “place of public
accommodation” subject to the requirements of Title
III of the Americans with Disabilities Act?

ii
PARTIES TO THE PROCEEDING
AND RELATED CASES
The parties to the proceedings below and in this
Court are:
Mark Silguero, suing as plaintiff in the district
court, appellant in the court of appeals, and petitioner
in this Court;
Amy Wolfe, plaintiff-intervenor in the district
court, appellant in the court of appeals, and petitioner
in this Court; and
CSL Plasma, Inc., the defendant in the district
court, appellee in the court of appeals, and respondent
in this Court.
The following proceedings are directly related
to this case:
•

Silguero v. CSL Plasma, Inc., No. 2:16-cv-361,
United States District Court for the Southern
District of Texas. Judgment entered Nov. 2,
2017.

•

Silguero v. CSL Plasma, Inc., No. 17-41206,
United States Court of Appeals for the Fifth
Circuit. Judgment entered Aug. 9, 2019.

•

Silguero v. CSL Plasma, Inc., No. 18-1022,
Supreme Court of Texas. Judgment entered
June 28, 2019.

iii
TABLE OF CONTENTS
QUESTION PRESENTED .......................................... i
PARTIES TO THE PROCEEDING
AND RELATED CASES ........................................... ii
TABLE OF AUTHORITIES ....................................... v
INTRODUCTION ....................................................... 1
OPINIONS BELOW ................................................... 3
JURISDICTION.......................................................... 4
STATUTE INVOLVED............................................... 4
STATEMENT OF THE CASE.................................... 6
1. Title III of the ADA ............................................. 6
2. The Plasma Industry .......................................... 8
3. CSL’s Refusal to Permit Petitioners to
Participate ...................................................... 11
4. Litigation Below ................................................ 12
REASONS FOR GRANTING THE WRIT ............... 15
I.

The Fifth Circuit’s decision squarely
conflicts with decisions of the Third
and Tenth Circuits ............................................. 15

II. Whether a multi-billion-dollar industry
is a covered public accommodation is an
important question warranting review ............. 18
III. The Fifth Circuit’s decision is wrong ................ 22
CONCLUSION.......................................................... 29

iv
APPENDIX
A. Court of appeals opinion
(Oct. 23, 2018) ................................................ 1a
B. Court of appeals opinion
(Aug. 9, 2019) ............................................... 19a
C. District court memorandum
and order granting motion to
dismiss (Nov. 2, 2017) .................................. 22a
D. Texas Supreme Court opinion on
certified question (June 28, 2019) ............... 36a
E. Court of appeals judgment
(Aug. 9, 2019) ............................................... 75a
F. Court of appeals order staying
mandate (Sept. 3, 2019) ............................... 77a

v
TABLE OF AUTHORITIES
Cases
Bragdon v. Abbott, 524 U.S. 624 (1998) ................... 7

CSX Transp., Inc. v. Alabama Dep’t of
Revenue, 562 U.S. 277 (2011) ........................... 25
Levorsen v. Octapharma Plasma, Inc.,

828 F.3d 1227 (10th Cir. 2016) ................. passim

Matheis v. CSL Plasma, Inc., 936 F.3d

171 (3d Cir. 2019) ........................ 1, 17, 18, 23, 27

Norfolk & W. Ry. Co. v. Am. Train
Dispatchers Ass’n, 499 U.S. 117 (1991) ............ 24
Pennsylvania Dep’t of Corrections v.
Yeskey, 524 U.S. 206 (1998).............................. 28
PGA Tour, Inc. v. Martin, 532 U.S. 661

(2001) ......................................................... passim

Richards v. CSL Plasma Ctr., No. 1:17-cv
4277 (N.D. Ga. Docket entry #52, Aug.
14, 2019). ............................................................ 19

Spector v. Norwegian Cruise Line Ltd.,

545 U.S. 119 (2005) ........................................... 24

Washington State Dep’t of Soc. & Health
Servs. v. Guardianship Estate of
Keffeler, 537 U.S. 371 (2003) ............................ 24
Yates v. United States, 574 U.S. 528

(2015) ................................................................. 24

Statutes
28 U.S.C. § 1254(1) ................................................... 4
42 U.S.C. § 12101(a)(1) ............................................. 6

vi
42 U.S.C. § 12101(b)(1) ...................................... 6, 20
42 U.S.C. § 12181(7) ................................................. 4
42 U.S.C. § 12181(7)(F)............................................. 8
42 U.S.C. § 12182(a) ...................................... 4, 6, 27
42 U.S.C. § 12182(b)(1)(D)(i) ................................ 6, 7
42 U.S.C. § 12182(b)(2)(A)(i)..................................... 7
42 U.S.C. § 12182(b)(2)(A)(ii) ................................... 7
42 U.S.C. § 12188(a) ................................................ 7
42 U.S.C. § 12188(b) ................................................ 7
Regulations
28 C.F.R. § 36.301(b)................................................. 7
Other Authorities
Brett M. Kavanaugh, Fixing Statutory
Interpretation, 129 Harv. L. Rev. 2118
(2016) ................................................................. 25
DOJ, Title III Technical Assistance
Manual, 4.1100 General, Illustration
4, https://www.ada.gov/taman3.html................ 28
H.R. Rep. No 101-485 (III), 101st Cong.,
2d Sess., at 54 (1990) ........................................ 25
H.R. Rep. 101-596, 101st Cong., 2d Sess.,
at 76 (1990) (Conf. Rep.) ................................... 25
S. Rep. No. 101-116 (1989) ................................. 7, 11

INTRODUCTION
This petition presents an important question that
has generated a clear and acknowledged conflict
among the federal courts of appeals: whether plasma
donation centers are “public accommodations” within
the meaning of Title III of the Americans with
Disabilities Act (ADA).
Within the past three years, three courts of appeals
have considered this question. First, the Tenth Circuit
held that plasma centers are covered public
accommodations. See Levorsen v. Octapharma
Plasma, Inc., 828 F.3d 1227 (10th Cir. 2016). Then, in
this case, the Fifth Circuit “reject[ed] the Tenth
Circuit’s conclusion” and held that plasma centers are
not. Pet. App. 14a. Most recently, the Third Circuit
examined this split of authority and held that “the
Tenth Circuit got it right: the ADA applies to plasma
donation centers.” Matheis v. CSL Plasma, Inc., 936
F.3d 171, 174 (3d Cir. 2019).
This question, already addressed by three
appellate courts, will continue to arise frequently.
More than 40 million times each year, at hundreds of
collection centers around the United States, the multibillion-dollar plasma industry extracts plasma from
members of the public. Meanwhile, respondent CSL
Plasma and other plasma companies have adopted
company-wide policies that routinely exclude people
with certain disabilities, without individualized
assessment of whether each person excluded is fit to
have plasma extracted and without considering
whether individuals with disabilities can participate
with reasonable accommodations.
For example, CSL excluded petitioner Amy Wolfe
based on a company-wide policy of excluding anyone

2
who uses a service animal for anxiety, without
assessing whether Ms. Wolfe could safely participate
in plasma extraction. Similarly, CSL excluded
petitioner Mark Silguero because of his mobility
impairment, without trying to accommodate his
needs.
Customers around the country have sued plasma
centers over similar exclusions, and the resulting
opinions of the courts of appeals are in irreconcilable
conflict. The Fifth Circuit’s opinion should be
reviewed to ensure that the ADA’s protections with
respect to a major industry’s customers are uniform
nationwide. This case presents an ideal vehicle for
resolving the conflict.
Letting the Fifth Circuit’s decision stand not only
would leave the conflict unaddressed, but would leave
in place an erroneous decision. Title III defines “place
of public accommodations” by reference to “12
extensive categories,” which Congress intended to be
“‘construed liberally’ to afford people with disabilities
‘equal access’ to the wide variety of establishments
available to the nondisabled.” PGA Tour, Inc. v.
Martin, 532 U.S. 661, 676–77 (2001) (quoting S. Rep.
No. 101-116, at 59 (1989), and H.R. Rep. No. 101-485,
pt. 2, at 100 (1990)). Among those “extensive
categories” is “service establishment,” a broad term
that is readily construed to cover entities that engage
with the public as plasma donation centers do. The
things a plasma center does to and for customers—
taking medical histories, assessing vital signs,
removing and then replacing blood with complex
machinery—constitute the provision of services as
that term is ordinarily used. Indeed, much of this
activity overlaps with that of health care providers,

3
which Title III
establishments.

specifically

lists

as

service

The Fifth Circuit held that plasma centers are not
service establishments because they pay money to
their customers instead of receiving payment for the
service rendered. Such a direction-of-payment
requirement does not appear in the text and is
inconsistent with Congress’s intent to ensure people
with disabilities access to all the “wide variety of
establishments available to the nondisabled.” PGA
Tour, 532 U.S. at 676–77. The Fifth Circuit inferred
this requirement from the 14 examples of service
establishments specified in the statute. Congress,
however, expressly did not require establishments to
be “similar” to the specified examples, making the
court’s application of the ejusdem generis doctrine
improper. Moreover, service establishments specified
in the ADA, such as banks and legal establishments,
offer services using a variety of business models, some
of which do not involve consumer payment.
The Fifth Circuit improperly narrowed the ADA’s
reach to exclude customers of a large industry from
the statute’s protections. The resulting conflict among
the courts of appeals requires resolution by this Court.
OPINIONS BELOW
The Fifth Circuit’s opinion holding that plasma
centers are not public accommodations for purposes of
Title III and certifying state-law questions to the
Texas Supreme Court is reported at 907 F.3d 323, and
is reproduced in the appendix at 2a. The court of
appeals’ subsequent decision disposing of the appeal
by reversing in part and remanding for further
proceedings in light of the Texas Supreme Court’s
state-law rulings is reported at 774 Fed. App’x 886,

4
and is reproduced in the appendix at 19a. The district
court’s memorandum opinion and order is unreported
and is reproduced in the appendix at 22a.
JURISDICTION
The court of appeals issued its final decision and
judgment in light of the state-court opinion on
certified questions on August 9, 2019. This Court has
jurisdiction under 28 U.S.C. § 1254(1).
STATUTE INVOLVED
Title III of the ADA, 42 U.S.C. §§ 12181–89,
provides in relevant part:
No individual shall be discriminated against on
the basis of disability in the full and equal
enjoyment of the goods, services, facilities,
privileges, advantages, or accommodations of
any place of public accommodation by any
person who owns, leases (or leases to), or
operates a place of public accommodation.
42 U.S.C. § 12182(a).
Title III defines “public accommodations” at 42
U.S.C. § 12181(7) as follows:
The following private entities are considered
public accommodations for purposes of this
subchapter, if the operations of such entities
affect commerce—
(A) an inn, hotel, motel, or other place of
lodging, except for an establishment located
within a building that contains not more than
five rooms for rent or hire and that is actually
occupied
by
the
proprietor
of
such
establishment as the residence of such
proprietor;

5
(B) a restaurant, bar, or other establishment
serving food or drink;
(C) a motion picture house, theater, concert
hall, stadium, or other place of exhibition or
entertainment;
(D) an auditorium, convention center, lecture
hall, or other place of public gathering;
(E) a bakery, grocery store, clothing store,
hardware store, shopping center, or other sales
or rental establishment;
(F) a laundromat, dry-cleaner, bank, barber
shop, beauty shop, travel service, shoe repair
service, funeral parlor, gas station, office of an
accountant or lawyer, pharmacy, insurance
office, professional office of a health care
provider,
hospital,
or
other
service
establishment;
(G) a terminal, depot, or other station used for
specified public transportation;
(H) a museum, library, gallery, or other place of
public display or collection;
(I) a park, zoo, amusement park, or other place
of recreation;
(J) a nursery, elementary, secondary, undergraduate, or postgraduate private school, or
other place of education;
(K) a day care center, senior citizen center,
homeless shelter, food bank, adoption agency,
or other social service center establishment;
and
(L) a gymnasium, health spa, bowling alley, golf
course, or other place of exercise or recreation.

6
STATEMENT OF THE CASE
1. Title III of the ADA—In 1990, Congress
enacted the ADA “to remedy widespread discrimination against disabled individuals.” PGA Tour, 532
U.S. at 674. Congress found that “physical or mental
disabilities in no way diminish a person’s right to fully
participate in all aspects of society, yet many people
with physical or mental disabilities have been
precluded from doing so because of discrimination.” 42
U.S.C. § 12101(a)(1) (emphasis added). Accordingly, it
passed a bill with broad protections, “to provide a clear
and comprehensive national mandate for the
elimination of discrimination against individuals with
disabilities.” Id. § 12101(b)(1).
The ADA “effectuate[s] its sweeping purpose” by
“forbid[ding] discrimination against disabled individuals in major areas of public life.” PGA Tour, 532 U.S.
at 675. Title I bars disability discrimination in
employment. 42 U.S.C. §§ 12111–12117. Title II bars
disability discrimination by public entities. 42 U.S.C.
§§ 12131–12165. And Title III—which is at issue
here—bars disability discrimination by places of
public accommodation and in certain other settings,
such as specified transportation services and licensing
examinations. 42 U.S.C. §§ 12181–12189.
Title III sets out the “[g]eneral rule” that places of
public accommodation may not discriminate “on the
basis of disability in the full and equal enjoyment of
the[ir] goods, services, facilities, privileges, advantages, or accommodations.” 42 U.S.C. § 12182(a). It
then provides more specific prohibitions, including on
using “standards or criteria or methods of
administration … that have the effect of discriminating on the basis of disability,” 42 U.S.C.

7
§ 12182(b)(1)(D)(i); imposing “eligibility criteria that
screen out or tend to screen out an individual with a
disability,” id. § 12182(b)(2)(A)(i); and “fail[ing] to
make reasonable modifications in policies, practices,
or procedures” that are “necessary to afford” service to
individuals with disabilities, id. § 12182(b)(2)(A)(ii).
Congress intended these provisions, collectively,
“to prohibit exclusion and segregation of individuals
with disabilities and the denial of equal opportunities
enjoyed by others based on, among other things,
presumptions, patronizing attitudes, fears, and
stereotypes about individuals with disabilities.” S.
Rep. No. 101-116, at 55. Title III’s animating principle
is that “covered entities are required to make
decisions based on facts applicable to individuals and
not on the basis of presumptions as to what a class of
individuals with disabilities can or cannot do.” Id.; see,
e.g., 28 C.F.R. § 36.301(b) (any safety requirements
imposed “must be based on actual risks and not on
mere speculation, stereotypes, or generalizations
about individuals with disabilities”); Bragdon v.
Abbott, 524 U.S. 624, 649 (1998).
Title III provides a private right of action to enforce
its protections. A private plaintiff can obtain
injunctive relief requiring a defendant to make its
services accessible, but not monetary relief. 42 U.S.C.
§ 12188(a). Additionally, the United States may
investigate Title III violations and initiate its own
lawsuits. 42 U.S.C. § 12188(b). 1
1 Because the United States thus has its own interest in the
scope of Title III, it submitted amicus briefs to the Fifth Circuit
in this case and the Tenth Circuit in Levorsen. Both times, it
agreed with Petitioners’ position that plasma centers are covered
public accommodations. See Brief for United States as Amicus

8
The term “place of public accommodation” is
“defined in terms of 12 extensive categories”—such as
“place[s] of public gathering,” “sales or rental
establishment[s],” and “place[s] of recreation”—each
of which Congress intended to be “‘construed liberally’
to afford people with disabilities ‘equal access’ to the
wide variety of establishments available to the
nondisabled.” PGA Tour, 532 U.S. at 676–77 (quoting
S. Rep. No. 101-116, at 59 (1989) and H.R. Rep. No.
101-485, pt. 2, at 100 (1990)). One of those categories
provides that the following are covered places of public
accommodation:
a laundromat, dry-cleaner, bank, barber shop,
beauty shop, travel service, shoe repair service,
funeral parlor, gas station, office of an
accountant or lawyer, pharmacy, insurance
office, professional office of a health care
provider, hospital, or other service establishment.
42 U.S.C. § 12181(7)(F) (emphasis added).
2. The Plasma Industry—This case involves
Title III’s application to plasma donation centers,
which are establishments that extract blood plasma
from members of the public in exchange for payment.
The multi-billion-dollar plasma industry terms this
process “donation.”
Like other plasma companies, CSL screens each
potential customer for fitness to donate. This
screening includes completion of a questionnaire
Curiae Supporting Neither Party, Silguero, 907 F.3d 323 (No. 1741206) and Brief for the United States as Amicus Curiae
Supporting Appellant and Urging Reversal, Levorsen, 828 F.3d
1227 (No. 14-4162).

9
about medical history, testing of vital signs, and
examination for needle pricks. If the customer asks,
CSL shares the results of the vital signs testing, such
as protein or blood pressure levels, and will provide an
information sheet with tips on how to increase protein
levels or otherwise become eligible. 2 CSL also informs
customers if blood pressure readings suggest the need
for immediate medical assistance. 3
Based on the screening, CSL decides unilaterally
whether it will permit a person to have plasma
extracted. CSL makes decisions to exclude potential
customers (decisions CSL calls “deferrals”) through
employees whom CSL terms Medical Staff Associates
(MSAs). MSAs are not doctors, and the exclusion
decisions are not based on individualized assessment
of a person’s fitness. Rather, CSL generates companywide eligibility guidelines (called the Medical Staff
Reference) that call for across-the-board exclusion of
people who fall into certain broad categories. MSAs
determine what medical conditions, if any, potential
customers present with, and then apply those
eligibility guidelines. Pet. App. 23a-24a.
People who are approved proceed to a donation
room. Pet. App. 2a-3a. They get into “donation beds,”
where technicians hook them to specialized machinery
that performs a process called plasmapheresis,
whereby blood is removed, plasma is separated from
red blood cells, and red blood cells are returned to the
bloodstream. Pet. App. 2a-3a, 22a-23a. At the end,
plasma centers pay customers around $30–$40. The

2
3

5th Cir. Record on Appeal (ROA) 17-41206.376-377.
ROA 17-41206.378.

10
extracted plasma is used for medicinal products sold
worldwide, for many times that amount. 4
The U.S. plasma industry is enormous and
growing rapidly. By 2016, according to the plasma
industry’s trade group, the industry was collecting
plasma from customers 38 million times annually—
triple the number of “donations” made just ten years
earlier—and generating revenue of more than $20
billion. 5 Those figures understate present reality, as
the industry’s trade association reports further
growth of 8 million plasma collections in 2018 alone. 6
More than 700 collection centers exist across the
United States, which is by far the world’s leading
plasma exporter. 7
CSL Plasma operates one of the largest and
fastest-growing plasma collection networks. In 2018
alone, it opened 26 donation centers around the
United States, and it now operates more than 200
centers in 41 states spanning all the regional

See Zoe Greenberg, What is the Blood of a Poor Person
Worth?, N.Y. Times (Feb. 1, 2019), https://www.nytimes.com/
2019/02/01/sunday-review/blood-plasma-industry.html.
4

See H. Luke Shaefer and Analidis Ochoa, How BloodPlasma Companies Target the Poorest Americans, The Atlantic
(Mar. 15, 2018), https://www.theatlantic.com/business/archive/
2018/03/plasma-donations/555599/ (citing to the Plasma Protein
Therapeutics Association trade group).
5

Amy Efantis, President & CEO of the Plasma Protein
Therapeutics Industry, Outlook, The Source 4 (Fall 2019),
https://vault.netvoyage.com/neWeb2/delView.aspx?env=%2FQ1
4%2Ft%2F3%2Fl%2Fq%2F~190925112919679.nev&dn=1&v=1
&dl=1&p=0&e=&t=2py6L1KCUqjKYU%2BQNOsj7hsOufM%3
D&cg=NG-N9RHSZR6&hd=1&nf=N&s=VAULT-PVPGFHJ2.
6

7

Id.

11
appellate circuits except the D.C. Circuit. 8 Many of its
users depend on the money they receive from regular
plasma extraction to make ends meet, and their lives
are severely disrupted if they are arbitrarily barred
from continued participation. 9
3. CSL’s Refusal to Permit Petitioners to
Participate—Petitioners are two people with
disabilities who could safely have their plasma
extracted. CSL excluded them both, explicitly citing
their disabilities as the reason. 10 CSL relied on
precisely the sort of “presumptions, patronizing
attitudes, fears, and stereotypes” that Title III was
intended to eradicate. S. Rep. No. 101-116, at 55. And
it made no attempt to accommodate petitioners’
disabilities.
Mark Silguero has suffered an injury to his left
knee and has degenerative joint disease and arthritis
in his right knee. As a result, he requires a cane to
walk. 11 For years, Silguero supplemented his limited
income by regularly selling his plasma. 12 One day,
CSL decided that he no longer was fit to participate.
As a matter of policy, CSL excludes anyone it believes
8 John Cropley, Plasma collection center opens on State Street
in Schenectady, The Daily Gazette (May 6, 2019),
https://dailygazette.com/article/2019/05/06/plasma-collectioncenter-opens-on-state-street. State-by-state listings of CSL’s
centers can be found at https://www.cslplasma.com/.
9

See Greenberg, supra note 4.

CSL disputes some of these facts, though all are supported
by record evidence. The Fifth Circuit properly did not rely on
CSL’s disputed version of events on summary judgment. Pet.
App. 3a–4a.
10

11
12

ROA 17-41206.8.

ROA 17-41206.9, 17-41206.244.

12
has an “unsteady gait” or is unable “to safely transfer
to and from” the donor bed “without assistance.” 13
After Silguero complained about this exclusion, CSL
permanently barred him. Pet. App. 24a. CSL put him
on the industry “deferral list,” excluding him not only
from CSL, but from all other plasma facilities. 14
CSL excluded Amy Wolfe the first time she tried to
donate plasma. She has diagnosed mental health
conditions, including post-traumatic stress disorder
brought on by a sexual assault. 15 As a result, she
suffers from anxiety, which is ameliorated by her
service dog, Harley. 16
Wolfe brought Harley with her to a CSL center,
which sent her home based on the dog without further
assessment of her fitness. Indeed, the CSL MSA who
interacted with her remembered nothing about Wolfe
other than her dog. 17 CSL then permanently excluded
her until such a time as she does not use a service
animal. As a matter of policy, CSL excludes anyone
using a service animal to treat anxiety, no matter how
calm and symptom-free their presentation at the
center. Pet. App. 25a.
4. Litigation Below—Mr. Silguero brought this
action against CSL in the Southern District of Texas.
Ms. Wolfe later intervened as a plaintiff. They both
alleged that CSL violated Title III and the Texas
Human Resources Code. Pet. App. 25a.

13
14

ROA 17-41206.147, 17-41206.270.
ROA 17-41206.10.

15

ROA 17-41206.411.

16

ROA 17-41206.415-417.

17

ROA 17-41206.427.

13
The district court granted summary judgment to
CSL, ruling that plasma centers are not public
accommodations subject to Title III. Applying the
interpretive maxim ejusdem generis, it reasoned that
each of the “service establishments” specified in the
statute is paid by members of the public for its
services, whereas plasma centers pay members of the
public for their transactions; this difference in
direction of payment, it reasoned, “bars them from
qualifying as service establishments.” Pet. App. 31a.
The district court also held that plasma centers were
not covered by Texas state law barring disability
discrimination. Pet. App. 33a-34a.
The court of appeals affirmed as to the Title III
count. It held that CSL is an “establishment” but does
not provide “service,” and so is not a “service
establishment.” The court defined a “service
establishment” as an establishment “that performs
some act or work for an individual who benefits from
the act or work.” Pet. App. 8a. It concluded that CSL’s
customers “receive no obvious ‘benefit’ or ‘help’ which
would make the plasma collection center’s act a
‘service,’” Pet. App. 9a-10a; rather, customers receive
money, “which is wholly collateral to the act of plasma
collection.” Pet. App. 10a. The court stated that it was
irrelevant that CSL “advertises plasma collection as a
‘service’ it gives for customers,” because “[h]ow a party
advertises the work it performs has no bearing on
what Congress meant by the term ‘service.’” Pet. App.
7a n.10.
Like the district court, the court of appeals
asserted that each of the service establishments
specified in the ADA “act[s] in some way that clearly
benefits the individual … [b]ut plasma collection does
not provide any detectable benefit for donors.” Pet.

14
App. 11a. It found irrelevant that Congress
specifically chose not to require covered entities to be
“similar service establishments,” inferring that
Congress’s concern was only to avoid limiting service
establishments “to variants of the enumerated items.”
Pet. App. 11a n.14. Accordingly, the court used the
specified examples to limit the term “service
establishments” to those providing “certain types of
services.” Id.
Finally, the court of appeals said that an
establishment that pays its customers effectively
employs them and therefore cannot be considered to
serve them. Pet. App. 12a-13a. Because the ADA
regulates employment solely through Title I, the court
stated, Title III coverage of employment-like
relationships would disrupt Congress’s calibration of
Title I protections, such as the exclusion of work as an
independent contractor or for small employers. Pet.
App. 13a. Treating an entity that pays its customers
as a service establishment, it said, “would turn
virtually every employer and entrepreneur into a
‘service establishment’” and would “make[] Title I
largely redundant.” Pet. App. 13a-14a.
The court recognized that it was creating a circuit
split both as to the application of Title III to the
plasma industry and in its broader reasoning as to the
scope of the term “service establishment.” It explicitly
“reject[ed] the Tenth Circuit’s conclusion that a
service is provided ‘regardless of whether
[establishments] provide or accept compensation as
part of that process.’” Pet. App. 14a (quoting Levorsen,
828 F.3d at 1233–34) (brackets in original).
As to whether plasma centers are covered “public
facilities” under state disability-rights law and, if so,

15
under what circumstances state law permits exclusion
of people with disabilities, the Fifth Circuit certified
those questions to the Texas Supreme Court. The
Texas court unanimously held that plasma centers are
covered because a plasma center is a “commercial
establishment … to which the public is invited.” Pet.
App. 48a-50a (quoting Tex. Hum. Rts. Code
§ 121.002(5)). It declined to narrow this language to
conform state-law protections to the Fifth Circuit’s
reading of the ADA. Pet. App. 53a-54a.
Following the Texas Supreme Court’s decision on
the certified question, the Fifth Circuit issued its final
decision in Petitioners’ appeal, reinstating their statelaw claim but affirming dismissal of the Title III
claim. Pet. App. 20a-21a. The Fifth Circuit remanded
to the district court to determine whether to exercise
supplemental jurisdiction over the state-law claim. Id.
Petitioners sought and received a stay of the mandate
pending this Court’s review of the Title III
determination. Pet. App. 77a.
REASONS FOR GRANTING THE WRIT
I.

The Fifth Circuit’s decision squarely
conflicts with decisions of the Third and
Tenth Circuits.

The Fifth Circuit held that plasma donation
centers are not public accommodations and, therefore,
are not subject to the non-discrimination
requirements of Title III of the ADA. This holding
squarely conflicts with decisions of the Third and
Tenth Circuits on indistinguishable material facts.
A. In Levorsen, the Tenth Circuit held that plasma
centers are service establishments covered by the
ADA.

16
Levorsen surveyed dictionary definitions of
“service,” and then held that the broad, plain meaning
of “service establishment” in the ADA includes any
business “that, by its conduct or performance, assists
or benefits someone” other than by providing that
person with a “tangible good.” 828 F.3d at 1231. Given
Title III’s broad purposes, it reasoned, “we won’t bend
over backwards to give the term ‘service
establishment’ a definition that is more narrow than
the plain meaning of its component parts.” Id. The
Tenth Circuit held that plasma centers fall within the
coverage of Title III, because they “assist or benefit
those who wish to provide plasma for medical use—
whether for altruistic reasons or for pecuniary gain—
by supplying the trained personnel and medical
equipment necessary to accomplish that goal.” Id. at
1234 (internal brackets and quotations omitted).
The Tenth Circuit rejected application of the
ejusdem generis doctrine to narrow the definition of
“service establishment” to otherwise covered
establishments that receive payment from customers.
Doing so, it stated, would leave gaps in Title III’s
coverage of commercial establishments open to the
public, and would be inconsistent “with Title III’s aim
of affording individuals with disabilities access to the
same establishments available to those without
disabilities.” Id. at 1232 (citing PGA Tour, 532 U.S. at
676–77). The court found relevant that, while
considering the legislation that became the ADA,
Congress specifically changed the operative language
from “‘other similar service establishments’ to ‘other
service establishments,’ presumably to make clear
that a particular business need not be similar to the
enumerated examples to constitute a service
establishment.” Id. at 1233.

17
The Fifth Circuit explicitly “reject[ed]” the Tenth
Circuit’s holding in affirming dismissal of Petitioners’
claims. Pet. App. 14a.
B. After the Fifth Circuit issued its opinion setting
forth its construction of the ADA, the Third Circuit
considered the same issue. Observing that it was
addressing an issue as to which two sister Circuits
already disagreed, the court held “that the Tenth
Circuit got it right: the ADA applies to plasma
donation centers.” Matheis, 936 F.3d at 174.
The Third Circuit reasoned that donors do benefit
from their visits to plasma centers—they “receive
money.” Id. at 177. It found the Fifth Circuit’s
“emphasis on the direction of monetary compensation”
was “unhelpful”:
Businesses that offer services to the public
convey something of economic value in return
for something else of economic value. The value
received by the service provider and given by
the customer is often money, but it need not be.
Money is one proxy for economic value, and
economic value is fungible.
Id. at 177–78.
For example, the Third Circuit observed that
money goes both ways between banks and their
customers—many of whom “receive money from banks
for using the bank’s service”—without changing the
banks’ service-establishment character. Id. at 178.
Similarly, pawnshops and recycling centers pay many
of their customers rather than having those customers
pay them. Id. at 178. These examples, it reasoned,
“underscore a simple fact: providing services means
providing something of economic value to the public;

18
it does not matter whether it is paid for with money or
something else of value.” Id.
Applying those principles, the Third Circuit held
that plasma centers are service establishments
because they “offer[] a service to the public, the
extracting of plasma for money, with the plasma then
used by the center in its business of supplying a vital
product to healthcare providers.” 936 F.3d at 178.
What matters, it reasoned, is that “both the center and
members of the public derive value from the center’s
provision and public’s use of a commercial service.” Id.
In that respect, the court held, a plasma center is no
different from the statute’s specifically named
examples. Id.
Based on the direct conflict with the Fifth Circuit’s
decision here, CSL—the defendant in both cases—
sought and received a stay of the Third Circuit’s
mandate so that it could file a petition for certiorari
from that judgment. In its motion, CSL stated that
“[t]he question of whether a plasma collection center
is a place of public accommodation under ADA Title
III is one that is hotly contested currently in the
federal courts and has divided the Courts of Appeals
in recent years.” See Mot. to Stay Mandate at 2,
Matheis v. CSL Plasma, Nos. 18-3415 & 18-3501 (3d
Cir., filed Sept. 20, 2019) (CSL Mot.). As CSL
explained to the Third Circuit, the conflict among the
circuits merits resolution by this Court. Id. at 5.
II. Whether a multi-billion-dollar industry is a
covered public accommodation is an
important question warranting review.
As both the Third and Fifth Circuits
acknowledged, and CSL agrees, the conflicting
decisions of the courts of appeals leave the plasma

19
industry and its customers with disabilities with
different rights and responsibilities depending on
where they are located. In the Third and Tenth
Circuits, plasma centers must respect the Title III
rights of individuals with disabilities. Plasma centers
must make reasonable modifications to their policies
for such customers’ needs and may exclude them
altogether only on grounds recognized by the ADA. In
the Fifth Circuit, on the other hand, the ADA does not
bar
plasma
centers
from
being
nakedly
discriminatory. As far as the ADA is concerned,
plasma centers may, for example, exclude blind
customers or those with wheelchairs, for irrational
reasons or no reason at all. And unlike virtually all
other commercial establishments open to the public,
they need not take affirmative steps to make their
services accessible or accommodate customers’
disabilities.
In the remaining circuits, the ADA’s application to
plasma centers is uncertain. Individuals with
disabilities must litigate this threshold question to
enforce any Title III rights they might have against
plasma centers. That uncertainty unacceptably
burdens their rights, and it mires courts and litigants
in unnecessary controversy. 18
That state-law disability protections apply to
plasma centers in Texas does not solve the problem.
18 For example, an individual filed a pro se complaint against
CSL in Georgia, alleging that the company unreasonably refused
to serve him because of his mental illness diagnosis. CSL moved
to dismiss on the grounds that Title III does not cover its conduct.
The district court recently directed the plaintiff to inform the
court whether he wanted appointed counsel to handle the
briefing. See Richards v. CSL Plasma Ctr., No. 1:17-cv-4277
(N.D. Ga. Docket entry #52, Aug. 14, 2019).

20
The Texas Supreme Court, which found the ADA to
provide useful guidance in other respects, could not
look to federal caselaw to inform the coverage of state
law because there is no settled federal interpretation.
Pet. App. 54a-55a n.8. Congress intended the ADA to
“provide a clear and comprehensive national mandate
for the elimination of discrimination against
individuals with disabilities,” 42 U.S.C. § 12101(b)(1)
(emphasis added). Both the plasma industry and its
customers will benefit from clarity about whether the
industry is subject to that national mandate, and if it
is, from the detailed guidance available from federal
case law, regulations, and guidance addressing
numerous granular questions about providing
reasonable accommodations to individuals with
disabilities.
Further, as CSL has stated, the applicability of the
ADA to plasma centers “is an issue that affects the
entire plasma collection industry and blood banks
nationwide.” CSL Mot. at 4. That industry has rapidly
grown in recent years and has become an enormous
part of the U.S. economy. See supra p. 10-11. With that
growth has come increasing controversy over the
industry’s systematic non-compliance with Title III’s
requirements.
Reports have documented that most “donors” are
relatively poor and rely heavily on the money they
receive from plasma donation for basic necessities
such as rent or groceries. 19 The plasma industry’s
target market overlaps with the population of persons
with disabilities, who are disproportionately lowincome. One recent official report found that
19

See Greenberg, supra note 4.

21
“[p]overty among people with disabilities has reached
epidemic proportions.” 20 But the industry does not
serve all those with disabilities whom it could
reasonably serve.
Based on the erroneous premise that they need not
comply with Title III’s requirements, plasma centers
have adopted policies requiring their employees to
turn away customers because of those customers’
disabilities, without any individualized assessment of
their ability to safely donate plasma or of plasma
centers’ ability to reasonably accommodate their
needs. For instance, plasma centers refuse to serve all
people who, in their estimation, have “unsteady gait,”
i.e., those who limp or use a cane; who use service
animals for certain purposes; or who have certain
diagnosed mental illnesses, Levorsen, 828 F.3d at
1229-30. That is, they engage in precisely the
discrimination based on overbroad stereotypes and
prejudice that led Congress to enact the ADA in the
first place. And because they do not recognize that the
ADA applies to their interactions with customers,
companies such as CSL do not train plasma center
employees on Title III requirements or otherwise
adopt policies to ensure that their services are
accessible to people with disabilities. 21
20 National Council on Disability, National Disability Policy:
A Progress Report, Letter of Transmittal to President Donald J.
Trump (2017), https://ncd.gov/sites/default/files/NCD_A%20Prog
ress%20Report_508.pdf. People with disabilities make up about
12 percent of the country’s working-age population, but account
for more than half of those in long-term poverty. Id. at 21.

21 ROA 17-41206.175. In 2009, the Justice Department
settled a Title III complaint lodged against the plasma company
Bio-Medics for failing to serve a blind man. The company
acknowledged that it had no procedures for accommodating the

22
This case presents an ideal vehicle for resolving
this important question. The threshold question of
whether plasma centers are public accommodations is
squarely presented and was the only ground on which
the Fifth Circuit affirmed the dismissal of plaintiffs’
Title III claims. Because it resolved this case on
threshold grounds, the Fifth Circuit did not reach factspecific questions such as whether CSL’s actions could
be justified under the ADA, and this Court need not
do so either.
III. The Fifth Circuit’s decision is wrong.
The Third and Tenth Circuits got it right, and the
Fifth Circuit got it wrong. The plain meaning of the
term “service establishment” is broad by design,
encompassing the wide variety of commercial
establishments (and some non-commercial ones as
well) that provide some benefit to the public, including
where that benefit takes the form of money. The Fifth
Circuit construed it otherwise only by narrowing the
reach of this broad term in ways that are not reflected
in the text and do not properly honor Congress’s
intent.
The activities that plasma centers do for
customers—e.g., medical screening, the extraction of
blood, and the removal of plasma—are, by their
nature, services. Indeed, much of that activity is also
performed by medical establishments, which are
specifically listed in the statutory definition. CSL
offers these services to the general public. Moreover,
needs of people with disabilities and only developed them once it
became clear that it could face Title III liability otherwise. See
Settlement Agreement Between the United States of America and
Bio-Medics, DJ # No. 202-77-45 (2009), https://www.ada.gov/biomedics.htm.

23
CSL itself regularly characterizes its activities as
“services” in a variety of contexts—and terms its
donors “customers” who benefit from those services—
further reinforcing that the plain meaning of the
broad term “service establishment” readily covers
those activities. For example, CSL’s website states:
“CSL Plasma is committed to providing the best in
customer service to our loyal plasma donors.” See
Recent Donation Experience Questions, CSL Plasma,
https://www.cslplasma.com/contact-us (last visited
Nov. 4, 2019). 22 Indeed, even the dissenting judge in
the Tenth Circuit’s Levorsen decision acknowledged
that plasma centers’ activities “seem to fit comfortably
within the category of ‘services’ that, in my view,
subsection (7)(F) contemplates.” 828 F.3d at 1242
(Holmes, J., dissenting).
The Fifth Circuit reasoned that, because a plasma
center extracts plasma for its use, not the customer’s,
and then pays the customer, “the individual performs
a service for the establishment, not the other way
around.” Pet. App. 10a. In so holding, the court added
a limitation to the plain meaning of “service
establishment” that appears nowhere in the ADA. As
the Third Circuit recognized, this logic also blinks
economic reality. Whether a customer pays for plasma
services or is paid for them, the parties have engaged
in a mutually beneficial transaction involving the
plasma center’s services. See Matheis, 936 F.3d at 178.
The Fifth Circuit’s distinction between those two
22 As the United States pointed out in its brief below, CSL’s
competitors also routinely describe themselves as providing
“service,” while many state laws specifically treat the
procurement of blood plasma as a “service” for other purposes.
See Brief for United States as Amicus Curiae Supporting Neither
Party at 12-14.

24
scenarios creates a loophole for evading Title III’s
protections and amounts to “a harsh and unexpected
interpretation of a statute designed to provide broad
protection for the disabled.” Spector v. Norwegian
Cruise Line Ltd., 545 U.S. 119, 132 (2005).
The Fifth Circuit justified its reading in two ways.
Both are wrong.
First, the court applied ejusdem generis—a maxim
that general words that follow a list of specific words
should be “construed to embrace only objects similar
in nature to those objects enumerated by the
preceding specific words,” Washington State Dep’t of
Soc. & Health Servs. v. Guardianship Estate of
Keffeler, 537 U.S. 371, 384 (2003)—to narrow the
broad term “service establishment” to those
establishments that it perceived to be of a kind with
the examples specified in the statute. Pet. App. 10a12a. Ejusdem generis, however, is a tool for
ascertaining the meaning of a statutory term where
Congress has used clarifying examples to prevent an
ambiguous term from having an unintended capacious
reach. See, e.g., Yates v. United States, 574 U.S. 528,
135 S. Ct. 1074, 1087 (2015). It “does not control …
when the whole context dictates a different
conclusion.” Norfolk & W. Ry. Co. v. Am. Train
Dispatchers Ass’n, 499 U.S. 117, 129 (1991).
Here, Congress defined “public accommodation” by
reference to “12 extensive categories” that would
collectively cover “the wide variety of establishments
available to the nondisabled.” PGA Tour, 532 U.S. at
676–77. Congress did not include examples of each
category to narrow those categories’ plain scope, but
to illustrate the categories’ breadth. In the case of
“service establishment,” Congress provided fourteen

25
very different examples, from laundromat to bank to
travel service to gas station to law office to health
provider. The dissimilarity of these examples reflects
that Congress did not include them to limit the plain
meaning of “service establishment” by reference to
some additional respect—beyond that they offer
services—in which they are all “the same.” See CSX
Transp., Inc. v. Alabama Dep’t of Revenue, 562 U.S.
277, 295 (2011) (“A canon meaning literally ‘of the
same kind’ has no application to provisions directed
toward dissimilar subject matter.”).
As a House Committee report explained:
A person alleging discrimination does not have
to prove that the entity being charged with
discrimination is similar to the examples listed
in the definition. Rather, the person must show
that the entity falls within the overall category.
For example, it is not necessary to show that a
jewelry store is like a clothing store.
H.R. Rep. No 101-485 (III), 101st Cong., 2d Sess., at
54 (1990). Accordingly, the Conference Committee, in
reconciling the Senate and House versions of the ADA,
chose the House version of the relevant language,
which unlike the Senate version did not require an
“other service establishment” (or any of the other
categories of public accommodation) to be “similar” to
those listed in the text. See H.R. Rep. 101-596, 101st
Cong., 2d Sess., at 76 (1990) (Conf. Rep.). The Fifth
Circuit’s invocation of ejusdem generis thus made the
mistake of “adding implicit limitations to statutes that
the statutes’ drafters did not see fit to add.” Brett M.
Kavanaugh, Fixing Statutory Interpretation, 129
Harv. L. Rev. 2118, 2160-61 (2016).

26
In any event, the necessary premise of ejusdem
generis—that a common theme of the specific
examples can inform the meaning of the general
term—is absent here, because customer payment to
the establishment (or existence of payment at all) is
not a necessary feature of the examples listed in the
statute. A legal establishment can accept payment for
service from its clients; can be paid by others (as are
legal-aid lawyers); can be not paid at all (as in pro bono
work); or can be paid on contingency, with the rest of
the proceeds paid out to its client. A bank can accept
payment for its services; can offer banking for no
charge (because it profits in other ways from the
money invested); or can pay its customers for
depositing their money. Those differences in payment
arrangements do not affect the character of the service
offered.
Similarly, the Fifth Circuit’s finding that each of
the “service establishments” listed in the ADA
performs a service that directly benefits a consumer,
whereas a plasma center’s activities benefit a
consumer only through the payment of money, Pet.
App. 11a, does not distinguish the listed
establishments from plasma centers. For example,
when “lawyers file clients’ pleadings,” the clients
receive no “detectable benefit” from the pleadings
themselves. Pet. App. 11a. Few clients seek the
drafting and filing of pleadings so they can read and
enjoy the completed work as a good in itself. Rather,
the goal of such activity more frequently is to increase
the client’s chance of receiving money (if plaintiff) or
decrease the client’s chance of paying money (if
defendant).
As the Third Circuit correctly put it, the constant
that unifies service establishments is not direction or

27
type of payment, nor the receipt of a non-monetary
ultimate benefit, but that service establishments
“convey something of economic value in return for
something else of economic value.” Matheis, 936 F.3d
at 177–78. Plasma centers readily qualify under that
test; they perform their activities as part of
transactions that leave both the plasma industry and
its customers better off.
Second, the Fifth Circuit held that money cannot
be the ultimate benefit that members of the public
receive from service establishments, because then
Title III might cover independent contractors and
other non-employee work relationships. That result,
the court said, would undermine Congress’s decision
not to extend Title I’s protections so far. Pet. App. 12a14a. This concern is unwarranted.
To begin with, there is no factual basis for the Fifth
Circuit’s slippery-slope concern. A restaurant’s
employee can be readily distinguished from a
restaurant’s customers—just as a plasma center’s
employees can be distinguished from its customers—
without regard to payment. No one entering a plasma
collection center would have difficulty telling the
customers from the employees.
Furthermore, Title III protects not simply “clients”
or “customers,” but all people in their equal enjoyment
of a public accommodation’s “goods, services, facilities,
privileges, advantages, or accommodations.” 42 U.S.C.
§ 12182(a). The proper inquiry thus is not whether a
plaintiff seeks access in order to obtain money (as
opposed to some other benefit), but whether the
discrimination complained about concerns protected
“goods, services, facilities, privileges, advantages, or
accommodations.” The relevant “privilege” may relate

28
to employment opportunity or the opportunity to
otherwise obtain money. For example, Title III bars a
hospital from discriminating based on disability in
granting physicians admitting privileges. See DOJ,
Title III Technical Assistance Manual, 4.1100
General, Illustration 4, https://www.ada.gov/taman3.
html. Accordingly, in PGA Tour, this Court rejected
the argument that Title III did not protect a
professional golfer’s right to participate in a
tournament because he was more like an employee
than a client or customer. 532 U.S. at 678.
The bottom line is that Congress intended Title III
to guarantee people with disabilities equal enjoyment
of all the “wide variety of establishments available to
the nondisabled,” PGA Tour, 532 U.S. at 676–77. And
it enacted language broad enough to cover plasma
centers, making it immaterial that it did not specify
that particular establishment for coverage. Cf.
Pennsylvania Dep’t of Corrections v. Yeskey, 524 U.S.
206, 212 (1998) (finding that sweeping language of
Title II of the ADA covers prisons). Courts should not
“bend over backwards” to find reasons not to call an
establishment that serves the public a “service
establishment.” Levorsen, 828 F.3d at 1232. By doing
so, the Fifth Circuit created precisely the sort of gap
in Title III’s coverage that the ADA’s drafters sought
to avoid.

29
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
Respectfully submitted,
ALLISON M. ZIEVE
SCOTT L. NELSON
PUBLIC CITIZEN
LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
(202) 588-1000
BRIAN EAST
LIA DAVIS
DISABILITY RIGHTS TEXAS
2222 West Braker Lane
Austin, TX 78758
(512) 407-2718

SASHA SAMBERG-CHAMPION
Counsel of Record
MICHAEL G. ALLEN
RELMAN, DANE, & COLFAX PLLC
1225 19th Street NW, Suite 600
Washington, DC 20036
(202) 728-1888
ssamberg-champion@
relmanlaw.com

Attorneys for Petitioners
November 7, 2019

APPENDIX

1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
[Filed October 23, 2018]
————
No. 17-41206
————
MARK SILGUERO,
Plaintiff-Appellant,
AMY WOLFE,
Intervenor-Appellant,
v.
CSL PLASMA, INCORPORATED,
Defendant-Appellee.
————
Appeal from the United States District Court
for the Southern District of Texas
————
Before KING, ELROD, and HAYNES, Circuit Judges.
HAYNES, Circuit Judge:
CSL Plasma, Inc. is a plasma collection center that
will pay anyone who passes its screening test to donate
plasma. Mark Silguero and Amy Wolfe are both individuals with disabilities who attempted to donate plasma but whom CSL Plasma deferred for reasons they
allege related to their disabilities. Silguero used a cane
and had a limp; Wolfe had anxiety and required the
use of a service animal. Silguero and Wolfe sued under
the Americans with Disabilities Act (“ADA”) and Chap-

2a
ter 121 of the Texas Human Resources Code (“THRC”).
The district court granted summary judgment in CSL
Plasma’s favor. It concluded that those laws did not
apply because CSL Plasma was neither a “public accommodation” under the ADA nor a “public facility” under
the THRC.
We affirm the district court’s decision regarding the
scope of the ADA. The core dispute is whether CSL
Plasma is a “service establishment” within the definition of “public accommodation.” We conclude it is not.
CSL Plasma does not provide any “service” to customers. Instead, it pays them for the inconvenience of
donating plasma so that it can collect a commercially
valuable asset. We certify the THRC questions to the
Supreme Court of Texas.
I. Background
CSL Plasma operates a network of plasma collection
centers. It offers to pay members of the public to donate1 plasma. Individuals who wish to donate must
pass a screening evaluation that confirms that the individual donating and the plasma extracted meet Food
and Drug Administration (FDA) regulations. Those
who do not pass the screening, for whatever reason,
are deferred—told they will not be permitted to donate
and will not be paid.
Those who pass the screening are taken to a room
where they are connected to specialized machinery
1

The district court refused to use the word “donate” because
“individuals are compensated for supplying their plasma” and it
was therefore “inaccurate to refer to them as ‘donors’ or to the
process as ‘donation.’” We use the term donate and its variants
because that term is used in federal regulations covering the
process. See, e.g., 21 C.F.R. § 606.100. But, for clarity, CSL Plasma pays any individual who donates plasma.

3a
that removes their blood, separates the plasma, and
then re-circulates the remaining elements of blood into
their system. After CSL Plasma extracts the plasma,
it pays the individual. There is no indication in the
record that members of the public pay CSL Plasma in
exchange for plasma collection or that it offers any
services for which the public can pay. CSL Plasma
sells the plasma it collects to other private entities who
use it for various medical purposes.2 Nothing in the
record indicates that CSL Plasma enters into any sort
of contingency fee arrangement with members of the
public, where the individual donating receives a percentage of the eventual sale price.
Silguero and Wolfe are two individuals who attempted to donate plasma at CSL Plasma but were both deferred. Silguero had previously donated before his deferral, while Wolfe had never donated before. The parties dispute the precise motivation for why Silguero
and Wolfe were each deferred. But all agree that the
deferrals were based on pre-existing policies implicating Silguero’s and Wolfe’s disabilities.3

2

The parties do not dispute the district court’s characterization that CSL Plasma sells the plasma. Some of the record evidence indicates that CSL Plasma may keep the plasma within its
corporate family rather than selling it to completely unrelated
parties. We do not believe the difference is material to the outcome of the case.
3

CSL Plasma argues that it implemented the policies in an
effort to comply with the FDA’s general regulation that collection
centers only allow those in “good health” to donate. 21 C.F.R.
§ 630.10(a). The parties disagree about the extent to which the
particular policies at issue are necessary to comply with the FDA
regulations. Obviously, any specific FDA regulations necessary to
protect the health of the plasma donors or recipients would override any contrary statutes of general application, such as the ADA.

4a
Silguero was initially deferred in December 2013,
and he says that the deferral was based on CSL Plasma’s policy not to accept donors who have an “unsteady
gait,” though the precise reason for his initial deferral
has changed over time. Silguero has bad knees and
requires the use of a cane to walk. After the initial
deferral, CSL Plasma permanently deferred him because he allegedly later threatened employees for initially deferring him. Silguero has presented evidence
that he never threatened employees or reacted inappropriately to the initial deferral; he asserts that CSL
Plasma’s reason for his permanent deferral is essentially a pretext to cover for discrimination based on his
disability. He remains permanently deferred.4
Wolfe was deferred in October 2016 based on CSL
Plasma’s policy not to accept donors whose anxiety
was severe enough to require the use of a service
animal.5 The parties agree that CSL Plasma had a
preexisting policy that applied to all individuals who
used animals to treat anxiety. At the time Wolfe tried
to donate, a doctor at CSL Plasma was contacted to
verify that she would be unable to donate due to her
service animal.6 The record is unclear to what extent
Given our holding in this case, we need not explore this potential
dichotomy further.
4

Were we to conclude that the ADA applies here, there would
be a fact question as to the reason for his permanent deferral.
5

The record is unclear whether the animal was a “service animal” as that term is used in various statutes and regulations. However, because we view the facts in the light most favorable to the
non-moving party and the issue was not specifically briefed by
CSL Plasma before the district court, we assume it was a “service
animal.”
6

We offer no opinion here on whether use of a service animal
renders a person “disabled” for purposes of the ADA sections in

5a
the doctor reviewed information unique to Wolfe. But
regardless of her unique circumstances, she will be
unable to donate so long as she uses her service animal
to treat the anxiety.
Silguero and Wolfe both sued, alleging unlawful
discrimination under Title III of the ADA, 42 U.S.C.
§ 12182, and Chapter 121 of the THRC, TEX. HUM. RES.
CODE § 121.001 et seq. CSL Plasma moved for summary judgment, arguing that it was neither a “public
accommodation” under the ADA nor a “public facility”
under the THRC. It also argued that Silguero and
Wolfe could not identify a genuine issue of material
fact or show that CSL Plasma had done anything other
than impose a legitimate safety requirement. The district court granted summary judgment, concluding that
neither the ADA nor the THRC applied to CSL Plasma.
It did not address CSL Plasma’s other arguments.
Silguero and Wolfe now appeal.
II. Standard of Review
This court reviews de novo a district court’s grant of
summary judgment, applying the same standard as
the district court. Austin v. Kroger Tex., L.P., 864 F.3d
326, 328 (5th Cir. 2017) (citing Ford Motor Co. v. Tex.
Dep’t of Transp., 264 F.3d 493, 498 (5th Cir. 2001)). It
reviews all evidence in the light most favorable to
Silguero and Wolfe, the non-moving parties. See id. at
328–29.

question. See 42 U.S.C. 12102(1) & (3) (defining “disability” and
“regarded as” having a disability). We assume arguendo that it
does.

6a
III. Discussion
We first address why we agree with the district
court that CSL Plasma is not a “public accommodation” under the ADA. We then explain why we certify
questions about the THRC to the Supreme Court of
Texas and set out the necessary information for the
Supreme Court of Texas to answer the questions.
A. ADA Claim
The crux of this case is whether CSL Plasma is a
“service establishment” under 42 U.S.C. § 12181(7)(F).
If it is, then it is a “place of public accommodation,”
and Title III of the ADA applies to it. See 42 U.S.C.
§ 12182(a). If it is not, then it cannot be held liable for
discrimination under Title III.7
The term “service establishment” appears in the definition of public accommodation. The definition includes
twelve different categories of accommodations. The single category at issue in this case includes an enumerated list of fifteen establishments, followed by the
catchall phrase “or other service establishment.” 42
U.S.C. § 12181(7)(F).8 Silguero and Wolfe do not argue
that plasma collection centers are among the enumerated items listed in that category.

7

Of course, this opinion in no way countenances any such
discrimination not grounded in safety and health regulations, but
our inquiry is limited to the scope of the ADA’s coverage here—
nothing more, nothing less.
8

The list is as follows: “a laundromat, dry-cleaner, bank, barber
shop, beauty shop, travel service, shoe repair service, funeral
parlor, gas station, office of an accountant or lawyer, pharmacy,
insurance office, professional office of a health care provider,
hospital, or other service establishment.” 42 U.S.C. § 12181(7)(F).

7a
Instead, the dispute is over the catchall phrase
“other service establishment.”9 The parties agree that
a “service establishment” is, unsurprisingly, an “establishment” providing “services” to others. They also agree
that CSL Plasma is an “establishment.” They disagree
about whether CSL Plasma provides “services” to
others.10
The word “service” generally denotes some “helpful
act” or an “act giving assistance or advantage to another.” See Service, MERRIAM-WEBSTER COLLEGIATE
DICTIONARY (10th ed. 1993); Service, WEBSTER NEW
WORLD COLLEGIATE DICTIONARY (3d ed. 1996). The
adjective “helpful” in the first definition implies that
someone receives help from the act. In the second
definition, the verb “giving” and the preposition “to”
9

The Department of Justice filed an amicus brief expressing
its view that plasma collection centers are “service establishments” under Title III. Neither the DOJ nor the parties contend
that the DOJ’s views are entitled to Chevron deference. Rightly
so, because agencies are not entitled to deference when they
assert their statutory interpretations solely through litigation
briefs. See Christensen v. Harris Cty., 529 U.S. 576, 587, (2000);
Freeman v. Quicken Loans, Inc., 626 F.3d 799, 805–06 (5th Cir.
2010), aff’d on other grounds, 566 U.S. 624 (2012); see also Ball v.
Memphis Bar-B-Q Co., 228 F.3d 360, 365 (4th Cir. 2000). At most,
the DOJ’s views would be entitled to “respect” under Skidmore v.
Swift & Co., 323 U.S. 134 (1944), which is given “only to the
extent that [the government’s] interpretations have the power to
persuade.” ExxonMobil Pipeline Co. v. United States Dep’t of
Transp., 867 F.3d 564, 574 n.4 (5th Cir. 2017) (quoting Moore v.
Hannon Food Serv., Inc., 317 F.3d 489, 497 (5th Cir. 2003)).
Because we are unpersuaded by the DOJ’s interpretation, we do
not defer to it.
10

Silguero and Wolfe argue that CSL Plasma advertises plasma collection as a “service” it gives for customers. How a party
advertises the work it performs has no bearing on what Congress
meant by the term “service.”

8a
indicate that the “assistance or advantage” is conveyed
from the act to the individual. Congress’s use of the
word “service” thus suggests not only that the establishment performed some action but also that the
action helped or benefited the recipient. In the case of
a “service establishment,” the establishment serves
the members of the public who are “helped” or “benefited” by the service. Other definitions from authoritative dictionaries bolster this reading. For example,
service can also be defined as “the provision (of labour,
material appliances, etc.) for the carrying out of some
work for which there is constant public demand.”
Service, OXFORD-ENGLISH DICTIONARY (2d ed. 1988);
see also Service, RANDOM HOUSE DICTIONARY (2d ed.
1987) (“[T]he organized system of apparatus, appliances, employees, etc., for supplying some accommodation required by the public.”). The “provision” of the
“work” goes to the “public” who “demands” it.11
Based on these dictionary definitions, a “service establishment” is an establishment that performs some act or
work for an individual who benefits from the act or
work.12 Our definition is materially similar to the one
11

Silguero and Wolfe also rely on Black’s Law Dictionary to
define “service,” but it cuts against their argument. Black’s defines
“service” to mean work that is usually done in exchange “for a
fee,” which Silguero and Wolfe concede did not happen here.
Service, BLACK’S LAW DICTIONARY (10th ed. 2010).
12

Silguero and Wolfe emphasize the definition for the word
“service” that we have used in other contexts. See Frame v. City
of Arlington, 657 F.3d 215, 226 (5th Cir. 2011) (en banc) (noting
that “service” under Title II of the ADA generally means “the
performance of work commanded or paid for by another,” or “an
act done for the benefit or at the command of another”); Hodges
v. Delta Airlines, Inc., 44 F.3d 334, 336 (5th Cir. 1995) (en banc)
(noting that “service” under a provision of the Airline Deregulation Act generally means “a bargained-for or anticipated pro-

9a
developed by the Tenth Circuit, the only other federal
court of appeals to address the ADA’s applicability to
plasma collection centers. See Levorsen v. Octapharma
Plasma, Inc., 828 F.3d 1227 (10th Cir. 2016). It defined
a “service establishment” to mean “a place of business
or a public or private institution that, by its conduct or
performance, assists or benefits someone or something
or provides useful labor without producing a tangible
good for a customer or client.” Id. at 1231. Though its
definition has additional verbs, each of the verbs
connote aid or benefit performed by the establishment
for the customer.13
We disagree with the Tenth Circuit, however, about
whether plasma collection centers provide a “service”
to customers. Three textual clues lead us to that result.
First, the word “service” implies that the customer is
benefitted by the act, and no such benefit occurs here.
Second, the list preceding the catchall term “other
service establishment” does not include any establishments that provide a “service” without a detectable
benefit to the customer. Finally, third, the structure of
the ADA indicates that an establishment typically
does not pay a customer for a “service” it provides.
First, the words “service establishment” alone imply
that the plasma donation at issue here is not a
vision of labor from one party to another”). We do not rely on the
definitions of “service” in other contexts because differing contexts can create different meanings. But we note that even if we
were to rely on those definitions, they would reinforce the definition we have identified here.
13

We need not decide whether a “service” cannot produce a
tangible good. If anything, it supports our conclusion that plasma
collection is not a “service” because the goal of the process is to
create marketable plasma. But the parties have not focused their
briefing on this point, and we therefore need not address it.

10a
“service.” As our review of the dictionary definitions
above demonstrates, the “service” in “service establishment” is generally viewed as flowing from the establishment to an individual. Here, donors receive no obvious “benefit” or “help” which would make the plasma
collection center’s act a “service.” They are hooked up
to a machine and drained of life-sustaining fluid, subjecting them to discomfort and medical risks. Donors
do not have the plasma earmarked for themselves or
to aid a specific third party for whom they are concerned. Instead, the plasma becomes the property of
the plasma collection center to do with it whatever it
pleases. The labor is not “useful” to the donor; it is
“useful” to the establishment. The donor is benefitted
only by the payment of money, which is wholly collateral to the act of plasma collection. Thus, as plasma
collection occurs in this case, the individual performs a
service for the establishment, not the other way around.
Second, this reading of “service establishment” is
bolstered by the enumerated list preceding that catchall
phrase. Generally, a catchall phrase should be read in
light of the preceding list, an interpretive maxim
known as ejusdem generis (“of the same kind”). See
Norfolk & W. Ry. Co. v. Am. Train Dispatchers’ Ass’n,
499 U.S. 117, 129 (1991). Silguero and Wolfe argue we
should not apply ejusdem generis here for two reasons.
One, the term “public accommodation” is to be liberally
construed. See PGA Tour, Inc. v. Martin, 532 U.S. 661,
676–77 (2001). But even when a statute is to be construed liberally, it is still not untethered from its text.
See Watson v. Philip Morris Cos., 551 U.S. 142, 147
(2007). Canons of interpretation help ensure that words
are not stretched past the limits Congress intended.
See Chickasaw Nation v. United States, 534 U.S. 84,
94 (2001). If Congress wanted to cover all “establishments” it could have done so, omitting the word

11a
“service.” So a “liberal” reading cannot be one which
reads out one of the words. Thus, applying ejusdem
generis helps us ensure we honor Congress’s legislative choices.
The second reason they offer for ignoring ejusdem
generis is the legislative history. Legislative history is
a last resort for ambiguous statutes, and it does not
help the plaintiffs here in any event.14 See Nat’l Ass’n
of Mfrs. v. Dep’t of Def., 138 S. Ct. 617, 634 (2018).
Applying ejusdem generis highlights how oddly plasma collection centers would fit into the list. Each of
the items on the list in 42 U.S.C. § 12181(7)(F) involves
establishments acting in some way that clearly
benefits the individual. Dry-cleaners press customers’
shirts. Lawyers file clients’ pleadings. Hospitals mend
patients’ broken bones. For each, the establishment
performs an action that directly benefits the individual, just as we defined the term above. But plasma
collection does not provide any detectable benefit for
donors.
14

The legislative history argued by Silguero and Wolfe does
not support their conclusion. They point out only that a previous
version of the bill wrote the catchall as “other similar places.” See
H.R. Conf. Rep. No. 101-596, at 75 (1990). The House Report
indicates the word “similar” was removed because plaintiffs
would “not have to prove that the entity being charged with
discrimination is similar to the examples listed.” H.R. Rep. No.
101-485, pt. 3, at 54 (1990). Putting a finer point on it, the Report
explained that “the person must show that the entity falls within
the overall category. For example, it is not necessary to show that
a jewelry store is like a clothing store. It is sufficient that the
jewelry store sells items to the public.” Id. This example shows
that Congress was concerned about unduly limiting the catchalls
to be limited to variants of the enumerated items. Here, we do not
use ejusdem generis to limit “service establishments” to certain
types of services; we use it to determine what a “service” is.

12a
Silguero and Wolfe contend that the list, however,
supports a broader reading of “service establishment”
for two reasons. One, they argue that some of the establishments on the list may perform services for free. For
instance, legal aid clinics provide services to the
indigent free of charge. But the absence of payment
does not change the fact that lawyers’ work unambiguously is done to benefit clients so that the work would
be a “service.” Two, Silguero and Wolfe contend that
one of the examples, a bank, may not only perform
some services for free but may pay customers through
interest on savings. But in that instance, any “free”
services and payment are directly linked to the act the
bank performs to benefit the customer. Banks manage
money. They benefit customers by storing and leveraging it. Any payment customers receive is not a result
of the customer’s labor but is instead an intrinsic result
of the act the bank performs to serve the customer.
Contrast that with plasma collection centers. After the
donor expends his time and resources donating plasma, the plasma belongs to the plasma collection center. The plasma collection center does not manage or
oversee the plasma on behalf of the donor. Donors are
therefore unlike bank customers because they are not
benefitted by the act the establishment performs.
The third reason we conclude that CSL Plasma does
not provide a “service” is that CSL Plasma pays for
plasma donation, which the structure of the ADA
indicates is governed by other provisions. The parties
agree that CSL Plasma pays all donors for plasma
donation. That relationship is more akin to employment or contract work, not the provision of a “service”
to a customer. Indeed, our lexicon confirms that society
thinks of those relationships as different. “Customers”
are “purchaser[s] of goods and services.” See Customer,
OXFORD ENGLISH DICTIONARY (2d ed. 1989) (emphasis

13a
added). In contrast, an “employee” is a “person who
works for an employer . . . for wages or a salary.” See
Employee, OXFORD ENGLISH DICTIONARY (2d. 1989).
Payment is thus relevant because it may indicate
whether an individual is a customer or is instead an
employee or other hired laborer.
The distinction between customer relationships and
employment relationships is embodied in the structure of the ADA. Title I applies to employment relationships, while “service establishment” defines “public
accommodations” under Title III. Compare 42 U.S.C.
§ 12112(a) with 42 U.S.C. § 12181(a). Congress made
specific legislative choices about how broadly Title I
would apply. For instance, Title I protects only “employees” and extends only to employers hiring a sufficient
number of employees. See 42 U.S.C. § 12111(4)–(5).
Thus, courts have often determined that employees at
small businesses and independent contractors are not
protected by Title I of the ADA. See Clackamas Gastroenterology Assocs., P.C. v. Wells, 538 U.S. 440, 441
(2003) (noting that the ADA “is inapplicable to very
small businesses”); Flynn v. Distinctive Home Care,
Inc., 812 F.3d 422, 427 & n.20 (5th Cir. 2016) (collecting persuasive authority that independent contractors
are not covered by Title I of the ADA). If we interpret
“service establishment” in Title III so broadly that it
includes employment and employment-like relationships, we risk overrunning Congress’s legislative
choices in Title I.
The way that Silguero and Wolfe interpret “service,”
Title III makes Title I largely redundant. They contend plasma collection benefits donors (and is therefore a “service”) because it enables them to “realize”
the “commercial value” of their plasma, which they

14a
could not otherwise do without CSL Plasma.15 That
conception of a “service” would turn virtually every
employer and entrepreneur into a “service establishment.” After all, a small restaurant enables cooks to
“realize” the “commercial value” of their skills by
providing a location for hungry people to come. A
construction general contractor enables construction
independent contractors to “realize” the “commercial
value” of their machinery by connecting them with clients in need. A commercial landscaper buying gravel
from a rock quarry enables the quarry to “realize” the
“commercial value” of its gravel by putting it to commercial use. Under Silguero and Wolfe’s interpretation, employees or contractors of these establishments
could simply dodge the narrowing scope of Title I and
sue under Title III. It is illogical to construe one title
to eviscerate the other.
We thus reject Silguero and Wolfe’s argument that
the direction of payment for services is irrelevant. In
doing so, we reject the Tenth Circuit’s conclusion that
a service is provided “regardless of whether [establishments] provide or accept compensation as part of that
process.” Octapharma Plasma, Inc., 828 F.3d at 1233–
34. We do not hold that payment from a customer to
the establishment is necessary to be considered a “ser15

In passing, Silguero and Wolfe also contend that CSL Plasma “offers discrete medical services even apart from evaluation
and medical extraction,” including “advice about how to improve
hematocrit and protein levels” and “donors’ blood pressure.” These
supposed services do not change the outcome in this case. First,
Silguero and Wolfe have not contended that they sought but were
denied these supposed services. Indeed, nothing in their complaints suggests that they want to avail themselves of these supposed services rather than donate. Second, these were not services but were instead incidental to the donation process. They are
no more “services” than is a background check for a job application.

15a
vice establishment” or that a “service” is never performed when an establishment compensates an individual. We conclude merely that payment—to or by
the establishment—is highly relevant in determining
whether an establishment provides a “service” to a
customer and is therefore a “service establishment.”16
Here, CSL Plasma pays donors who receive no detectable benefit from the act of donation. Its entire
business model is structured this way. It thus does not
offer plasma collection as a “service” to the public and
is therefore not a “service establishment.” We affirm
the district court’s order granting summary judgment
to CSL Plasma on Silguero’s and Wolfe’s ADA claims.
B. THRC Claim
Silguero and Wolfe have also sued under § 121.003(a)
of the THRC, which provides similar protection for disabled individuals under state law. The district court
concluded that CSL Plasma was not a “public facility”
under the THRC and therefore was not subject to liability. We examine whether Texas has already addressed this question and, if not, whether we can and
should certify the question to the state’s highest civil
court.
The THRC differs significantly from the ADA. It was
enacted before the ADA. It is not split into various
titles that cover distinctly different activities. It uses
different terms to define its scope. Instead of apply
ing to “public accommodations,” it applies to “public
facilit[ies].” See TEX. HUM. RES. CODE. § 121.003(a).
16

This conclusion is consistent with PGA Tour, Inc., where the
Supreme Court determined that a golfer entering a tournament
open to the public was protected by Title III partly because the
golfer paid $3,000 to enter the tournament. See 532 U.S. at 679.

16a
The term “public facility” is defined in an entirely different manner than “public accommodation” under
the ADA. See TEX. HUM. RES. CODE § 121.002(5). Recognizing these differences, the Supreme Court of
Texas has said it will not look to federal courts’ interpretations of “public accommodation” to interpret the
term “public facility.” See Beeman v. Livingston, 468
S.W.3d 534, 542–43 (Tex. 2015). We cannot simply
assume that, because CSL Plasma is not a “public accommodation” under the ADA, it is not a “public facility” under the THRC.
But answering the question of whether a plasma
collection center is a “public facility” is difficult. Texas
courts have not interpreted the term “public facility”
often. The Supreme Court of Texas only appears to
have done so once and in a far different context from
this case. See id. No Texas appellate court, to our
knowledge, has addressed the application of the THRC
to plasma collection centers. Thus, we examine whether we can and should certify the question to the Supreme Court of Texas.
The Texas Constitution grants the Supreme Court
of Texas the power to answer questions of state law
certified by a federal appellate court. TEX. CONST. art.
V, § 3-c(a). Texas rules provide that we may certify
“determinative questions of Texas law having no
controlling Supreme Court [of Texas] Precedent” to the
Supreme Court of Texas. TEX. R. APP. P. 58.1. Our case
law provides factors to use in deciding whether to
certify a question:
(1) the closeness of the question and the
existence of sufficient sources of state law;
(2) the degree to which considerations of
comity are relevant in light of the particular
issue and case to be decided; and (3) practical

17a
limitations of the certification process: significant delay and possible inability to frame the
issue so as to produce a helpful response on
the part of the state court.
Swindol v. Aurora Flight Scis. Corp., 805 F.3d 516,
522 (5th Cir. 2015) (internal quotation marks omitted)
(quoting Williamson v. Elf Aquitaine, Inc., 138 F.3d
546, 549 (5th Cir. 1998)).
Turning to the first factor, we have no state law
guidance, and our federal analogue is not analogous.
Applying the second factor, the answer to this important question could either impose future liability
on many Texas businesses or preclude Texans from
relying on an important anti-discrimination statute.
In a prior case addressing these two factors, we have
acknowledged that cases like this one—“where important state interests are at stake and the state
courts have not provided clear guidance on how to
proceed,” Louisiana v. Anpac La. Ins. Co. (In re
Katrina Canal Breaches Litig.), 613 F.3d 504, 509 (5th
Cir. 2010) (quoting Free v. Abbott Labs., 164 F.3d 270,
274 (5th Cir. 1999))—are candidates for certification.
With respect to the final factor, we perceive no
hardship in certifying the question. We can formulate
discrete issues for consideration, and the Supreme
Court of Texas has been prompt in its responses. (Of
course, it has the discretion to decline certification if it
disagrees with our analysis of these factors.) When
asked at oral argument, neither party presented any
reasons not to certify the relevant questions to the
Supreme Court of Texas. We thus conclude certification is prudent and appropriate in this case.

18a
Accordingly, we certify the following questions to
the Supreme Court of Texas:17

1. Is a plasma collection center like the one
described in Section I of this opinion
a “public facility” under Texas Human
Resources Code § 121.002(5)?

2. If so, would Texas law allow the plasma
collection center to reject a “person with
a disability,” see TEX. HUM. RES. CODE
§ 121.002(4), based on the center’s concerns for the individual’s health that stem
from the disability? What standard would
apply to determining whether the plasma
collection center properly rejected the
person, rather than committed impermissible discrimination under Texas Human
Resources Code § 121.003(a)?
We disclaim any intention or desire that the Supreme
Court of Texas confine its reply to the precise form or
scope of the questions certified.
IV. Conclusion
We AFFIRM the district court’s grant of summary
judgment on Silguero’s and Wolfe’s claims under the
ADA. We CERTIFY to the Supreme Court of Texas the
questions identified above.
[SEAL]
A True Copy
Certified Oct 23, 2018
/s/ Lyle W. Cayce
Clerk, U.S. Court of
Appeals, Fifth Circuit
17

The stipulated facts are set forth in the facts section above,
and the style of the case is at the beginning of this opinion.

19a
APPENDIX B
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
[Filed August 9, 2019]
————
No. 17-41206
————
MARK SILGUERO,
Plaintiff-Appellant,
AMY WOLFE,
Intervenor-Appellant,
v.
CSL PLASMA, INCORPORATED,
Defendant-Appellee.
————
Appeal from the United States District Court
for the Southern District of Texas
USDC No. 2:16-CV-361
————
Before KING, ELROD, and HAYNES, Circuit Judges.
PER CURIAM:*
Mark Silguero and Amy Wolfe sued CSL Plasma, Inc.,
a plasma collection center, for disability discrimination
under the Americans with Disabilities Act (ADA) and
Texas state law. We previously affirmed the district
*

Pursuant to 5TH CIR. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH CIR. R. 47.5.4.*

20a
court’s judgment in favor of CSL on the ADA claim,
but we submitted two certified questions to the Supreme Court of Texas regarding the state law claims.
Silguero v. CSL Plasma, Inc., 907 F.3d 323, 333 (5th
Cir. 2018). Specifically, we asked about whether a
plasma collection center is a “public facility” under
Texas Human Resources Code § 121.002(5) and what
standard applies to determine whether a facility’s
rejection of a person constitutes impermissible discrimination. Id. The Supreme Court of Texas has now
answered those questions. See Silguero v. CSL
Plasma, Inc., No. 18-1022, 2019 WL 2668888 (Tex.
June 28, 2019).
Consistent with the Supreme Court of Texas’s analysis of relevant state law, we REVERSE the district
court’s judgment on the state law claims because it
was based upon the incorrect conclusion that a plasma
collection center is not a “public facility” under Texas
Human Resources Code § 121.002(5). We REMAND to
the district court for further proceedings. Before addressing the merits of the case, the district court
should reconsider whether it should exercise supplemental jurisdiction over Silguero’s and Wolfe’s state
law claims in light of the revelation that the federal
and state laws are different in this context and the
affirmance of the judgment in CSL’s favor on the
federal claims, leaving no current federal law claims.
See 28 U.S.C. § 1367(c); City of Chicago v. Int’l Coll.
of Surgeons, 522 U.S. 156, 173 (1997); see also, e.g.,
Enochs v. Lampasas Cty., 641 F.3d 155, 158–59 (5th
Cir. 2011). We express no opinion at this juncture as
to whether such jurisdiction should be exercised. If the
district court does exercise supplemental jurisdiction,
then it should proceed to the merits of the state law
claims in accordance with the Supreme Court of
Texas’s answers to the certified questions.

21a
In sum, we AFFIRM the district court’s judgment as
it applies to plaintiffs’ ADA claims. We REVERSE and
REMAND the judgment as it applies to plaintiffs’
claims under the Texas Human Resources Code.

22a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
CORPUS CHRISTI DIVISION
[Filed November 03, 2017]
————
Civil No. 2:16-CV-361
————
MARK SILGUERO, et al,
v.

Plaintiff,

CSL PLASMA, INCORPORATED,
————

Defendant.

MEMORANDUM AND ORDER
This Court now considers motions for summary judgment filed by Defendant CSL Plasma Inc. (“CSL”),
Plaintiff Mark Silguero (“Silguero”), and Plaintiff Amy
Wolfe (“Wolfe”), Dkt. Nos. 34-36. For the reasons
stated below, the Court GRANTS Defendant’s Motion
for Summary Judgment, Dkt. No. 34, and DENIES AS
MOOT Plaintiffs’ motions for summary judgment,
Dkt. Nos. 35-36.
I. Background
A. Undisputed Facts1
CSL operates a network of plasma-donation centers
across the United States. Plasma donation involves a
1

The undisputed facts in this order are taken from the uncontested deposition testimony of Silguero, Wolfe, CSL medical staff
associates Michelle Mailey (“Mailey”), Juliana Sanchez (“Sanchez”),
and Melanie Garcia (“Garcia”), and CSL Divisional Medical Director Dr. John Nelson (“Nelson”).

23a
procedure called plasmapheresis, whereby a donor’s
blood is removed, their blood plasma is separated from
their red blood cells, and the red blood cells are then
returned to the donor’s bloodstream. CSL compensates
donors for their plasma, which it then sells to pharmaceutical companies.2 Nelson Dep. 25:5-19, Dkt. No. 34
APP 37. The plasma-extraction process is regulated by
the Secretary of Health and Human Services and
by the Food and Drug Administration (“FDA”). See 42
U.S.C. § 262(a); 21 C.F.R. §§ 630.1-630.35. Specifically, the FDA sets standards for donor eligibility,
licenses plasma-donation centers, and audits those
centers to ensure compliance with FDA regulations.
See 21 C.F.R. § 630.1-630.35.
To comply with FDA regulations, CSL individually
screens potential donors to determine whether they
are eligible to donate plasma. Mailey Dep. 17:19-19:5,
Dkt. No. 34 APP 20. At CSL, potential donors answer
health-related questions in the reception area and
their vital signs are tested. Nelson Dep. 30:16-23.
Then, additional individualized screening is performed
by a Medical Staff Associate (“MSA”), who observes the
potential donor and may ask about a variety of factors
that could affect their eligibility to donate, such as
their medical history, current medications, and recent
tattoos. Id. at 30:24-31:3; Mailey Dep. at 18:13-19:9.
MSAs often consult CSL’s medical guidelines on eligibility (which provide, for example, that a person is
ineligible to donate if they suffer from anxiety requiring the use of a service dog) and may also contact CSL

2

Because individuals are compensated for supplying their
plasma, it is inaccurate to refer to them as “donors” or to the process as “donation.” However, the Court recognizes the common use
of these terms, and adopts them for simplicity.

24a
physicians by phone to discuss particular cases. Garcia
Dep. 13:21-14:8; see Dkt. No. 34 APP 110.
Silguero is a longtime plasma donor who also suffers
from bad knees. Silguero Dep. 11:16-21, Dkt. No. 34 at
APP 81; id. at 13:5-14:17. The parties agree that
Silguero qualifies as a person with a disability under
the Americans with Disabilities Act (ADA) and the
Texas Human Resources Code (THRC). See Dkt. No.
35 at 4; Dkt. No. 37 at 9.
Between January and April of 2014, Silguero donated plasma at CSL multiple times. Id. at 22:12-19.
Then, after several months without visiting CSL,
Silguero attempted to donate on January 2, 2015. Id.
at 36:22-37:7. At that time, the condition of Silguero’s
knees had been deteriorating and they “were in bad
shape. Needed to be replaced.” Id. at 19:4-7. When
Silguero visited CSL on January 2, 2015, he completed
the donor screening process and met with MSA
Mailey. Id. at 36:22-24, 38:1-39:7; Mailey Dep. 76:1077:1. Mailey questioned Silguero regarding his unsteady gait and use of a cane, and informed him that
he could not donate that day because it appeared that
he could not safely transfer to and from the donation
bed. Silguero Dep. at 39:5-19, 41:2-5; Mailey Dep. 77:36, 80:3-5. Silguero became upset, shook his finger at
Mailey, and told her that she was “going to be sorry.”
Silguero Dep. 39:22-40:1. Mailey then called the assistant center manager, Dennis Thomas, who spoke with
Silguero. Mailey Dep. 78:16-79:4. CSL subsequently
banned Silguero from donating at CSL. See Dkt. No.
34 APP 99.
Wolfe has suffered from anxiety for several years,
and adopted her service dog, Harley, in May 2015.
Wolfe Dep. 20:3-23, 13:13-14:3, Dkt. No. 34 APP 89,
91. The parties agree that Wolfe qualifies as a person

25a
with a disability under the ADA and the THRC. See
Dkt. No. 36 at 4-12; Dkt. No. 38 at 10.
On October 9, 2016, Wolfe went to CSL to donate
plasma for the first time. Wolfe Dep. 29:9-12, 26:20-24.
Because the CSL receptionist noticed that Wolfe had
a service dog, Wolfe skipped the standard intake
process and immediately met with MSA Sanchez to
determine whether Wolfe could donate. Id. at 31:732:8, 37:1638:15. Although Sanchez observed that
Wolfe appeared calm, she sent Wolfe home until CSL
could determine whether her service dog precluded
her from donating. Id. at 33:13-34:11. Sanchez then
discussed the case with Dr. Nelson. Sanchez Dep.
34:23-35:22, Dkt. No. 34 APP 68; see Dkt. No. 34 APP
122. Nelson informed Sanchez that Wolfe could not
donate for as long as she required a service animal to
treat her anxiety, and Sanchez relayed the decision to
Wolfe by phone. Dkt. No. 34 APP 122; Wolfe Dep.
35:14-25. Nelson’s decision aligned with CSL guidelines that a person is ineligible to donate if they suffer
from anxiety requiring the use of a service dog. See
Dkt. No. 34 APP 110.
B. Procedural History
On August 24, 2016 Silguero filed his complaint
against CSL, alleging disability discrimination. Dkt.
No. 1. He seeks injunctive relief under Title III of the
Americans with Disabilities Act and both injunctive
relief and damages under Texas Human Resources
Code Chapter 121. Id. CSL filed its answer on September 27, 2016. Dkt. No. 8. On March 3, 2017, Wolfe
moved to intervene as a plaintiff, arguing that her
disability discrimination claims against CSL presented common questions of law and fact. Dkt. No. 17;
see FED. R. CIV. P. 24(b)(1)(B). The Court granted
Wolfe’s motion on March 28, 2017. Dkt. No. 21.

26a
On August 14, 2017, CSL, Silguero, and Wolfe each
filed a motion for summary judgment. Dkt. Nos. 34-36.
On September 1, 2017, CSL filed its responses to
Plaintiffs’ motions, Dkt. Nos. 37-38. Plaintiffs filed
their joint response to CSL’s motion on September 5,
2017. Dkt. No. 39. On September 15 and September
19, 2017, Plaintiffs and CSL, respectively, filed their
replies. Dkt. Nos. 41-42. The parties’ deadline to file
pretrial motions and the Joint Pretrial Order is
November 2, 2017, Dkt. No. 44, and the Final Pretrial
Conference is set for November 16, 2017 at 2:00 p.m.,
Dkt. No. 40.
This Court now considers the parties’ motions for
summary judgment.
II. Legal Standard
“[A] court shall grant summary judgment if the movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). “A genuine
issue of material fact exists when the evidence is such
that a reasonable jury could return a verdict for the
non-movant.” Piazza’s Seafood World, L.L.C. v. Odom,
448 F.3d 744, 752 (5th Cir. 2006) (citing Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248 (1986)). “[A]
complete failure of proof concerning an essential element of the nonmoving party’s case necessarily renders all other facts immaterial and mandates the entry
of summary judgment for the moving party.” United
States ex rel. Farmer v. City of Houston, 523 F.3d 333,
337 (5th Cir. 2008) (quoting Celotex Corp. v. Catrett,
477 U.S. 317, 322–23 (1986)) (internal quotation marks
omitted).
The Court must view all evidence in the light most
favorable to the non-moving party. Piazza’s Seafood

27a
World, 448 F.3d at 752. Factual controversies must be
resolved in favor of the non-movant, “but only when
there is an actual controversy, that is, when both parties have submitted evidence of contradictory facts.”
Little v. Liquid Air Corp., 37 F.3d 1069, 1075 (5th
Cir. 1994). “When assessing whether a dispute to any
material fact exists, [courts] consider all of the evidence in the record but refrain from making credibility
determinations or weighing the evidence.” Delta &
Pine Land Co. v. Nationwide Agribusiness Ins. Co.,
530 F.3d 395, 398–99 (5th Cir. 2008).
“Once the moving party has initially shown `that
there is an absence of evidence to support the nonmoving party’s cause,’ the non-movant must come
forward with ‘specific facts’ showing a genuine factual
issue for trial.” TIG Ins. Co. v. Sedgwick James of
Wash., 276 F.3d 754, 759 (5th Cir. 2002) (quoting
Celotex, 477 U.S. at 325). The non-movant may not
merely rely on conclusory allegations or the pleadings.
See Lujan v. Nat’l Wildlife Fed’n, 497 U.S. 871, 888
(1990). The non-movant’s burden is not satisfied
by “conclusory allegations,” “unsubstantiated assertions,” or “by only a scintilla of evidence.” Little, 37
F.3d at 1075 (internal quotations and citations omitted). Courts are not required to search the record on
the non-movant’s behalf for evidence that may raise a
fact issue. Nissho-Iwai Am. Corp. v. Kline, 845 F.2d
1300, 1307 (5th Cir. 1988).
III. Analysis
A. Applicability of the Americans with Disabilities
Act
The ADA prohibits discrimination “on the basis of
disability in the full and equal enjoyment of the goods,
services, facilities, privileges, advantages, or accom-

28a
modations of any place of public accommodation.”
42 U.S.C. § 12182(a). The Act defines eligible “public
accommodations” according to twelve enumerated categories. 42 U.S.C. § 12181(7). These categories “should
be construed liberally to afford people with disabilities
equal access to the wide variety of establishments
available to the nondisabled.” PGA Tour, Inc. v.
Martin, 532 U.S. 661, 676-77 (2001) (citations omitted). In this case, the first issue to be resolved by this
Court is whether CSL is a service establishment.
Section 12181(7)(F) defines a “service establishment”
as
a laundromat, dry-cleaner, bank, barber shop,
beauty shop, travel service, shoe repair service, funeral parlor, gas station, office of an
accountant or lawyer, pharmacy, insurance
office, professional office of a health care provider, hospital, or other service establishment.
42 U.S.C. § 12181(7)(F). At issue is whether a plasmadonation center qualifies as an “other service establishment.”
Plaintiffs argue that a plasma-donation center falls
within the plain meaning of “service establishment”
because “[t]he extraction of plasma itself is a service.”
Dkt. 35 at 16. In support of its argument, Plaintiffs
cite Levorsen v. Octapharma Plasma, Inc., 828 F.3d
1227 (10th Cir. 2016), in which the Tenth Circuit held
that “a [plasma-donation center] is a ‘service establishment’ for two exceedingly simple reasons: It’s an
establishment. And it provides a service.” Id. at 1229.
Plaintiffs argue that CSL provides a service by extracting a donor’s plasma, and that the plasma itself “is in
effect the payment [by the donor] for that service.”
Dkt. 41 at 6. Even if the direction of payment is relevant, Plaintiffs argue that plasma-donation centers

29a
qualify as service establishments because the donors
pay for the service of plasma extraction with their own
blood plasma.
CSL argues that a plasma-donation center does not
qualify as a service establishment because it is “fundamentally different” from the listed examples in
§ 12181(7)(F). Dkt. No. 34 at 16. It claims that the
Tenth Circuit in Levorsen “erroneously stretch[ed] the
language of the ADA beyond what is reasonable” and
that the dissent in that case correctly “recognized that
plasma centers do not receive a fee from the public in
exchange for services, unlike every other example in
subsection (7)(F).” Id. at 21. Because donors do not pay
plasma-donation centers, it argues, the centers do not
have the necessary trait in common with the other
examples listed in § 12181(7)(F). CSL alternatively
argues that, at most, plasma-donation centers are
“mixed-use facilities,” so that the ADA applies to a
center’s public lobby, but not to its donation area.
Id. at 23.
Although the ADA provides protections for persons
with disabilities in a wide range of places, those
protections are restricted to the categories specifically
enumerated in § 12181(7). The Court must therefore
determine the plain meaning of “other service establishment” as used in the ADA. See Sample v. Morrison,
406 F.3d 310, 312 (5th Cir. 2005) (“The appropriate
starting point when interpreting any statute is its
plain meaning.”) (citations omitted). If the meaning is
unambiguous, a court “must apply the statute according to its terms.” Asadi v. G.E. Energy (USA), L.L.C.,
720 F.3d 620, 622 (5th Cir. 2013) (quoting Carcieri v.
Salazar, 555 U.S. 379, 387 (2009)).
Two canons of statutory construction are particularly useful here: ejusdem generis and noscitur a sociis.

30a
See also Magee v. Coca-Cola Refreshments USA, Inc.,
833 F.3d 530, 534 (5th Cir. 2016) (applying those
canons to determine whether a vending machine qualifies as a “sales establishment” under the ADA). Under
the canon of ejusdem generis, “when a general word or
phrase follows a list of specifics, the general word or
phrase will be interpreted to include only items of the
same class as those listed.” Ejusdem generis, BLACK’S
LAW DICTIONARY (10th ed. 2014).3 Under noscitur a
sociis, “a word is known by the company it keeps.” Ali
v. Federal Bueau of Prisons, 552 U.S. 214, 226 (2008)
(quoting S.D. Warren Co. v. Me. Bd. Of Envtl. Prot.,
547 U.S. 370, 378 (2006)); see United States v.
Williams, 553 U.S. 285, 294 (2008) (stating that
noscitur a sociis “counsels that a word is given more
precise content by the neighboring words with which
it is associated”).
Here, the examples of service establishments listed
in § 12181(7)(F) give precise meaning to the term
“other service establishment” because the examples
share a common trait: the provision of goods or services
by the establishment in exchange for compensation.
The public is invited to each service establishment—
whether a laundromat, gas station, or hospital—in
order to pay for services provided by the establishment. The catchall term “other service establishment”
incorporates same trait—providing a service to the
public in exchange for compensation.

3

The example given in Black’s Law Dictionary is illustrative:
“[I]n the phrase horses, cattle, sheep, pigs, goats, or any other farm
animals, the general language or any other farm animals—
despite its seeming breadth—would probably be held to include
only four-legged, hoofed mammals typically found on farms, and
thus would exclude chickens.” Id.

31a
Plasma-donation centers operate in reverse to the
examples listed in § 12181(7)(F). At a plasma-donation
center, a donor provides the good (blood plasma) and
the center offers compensation. This Court disagrees
with the Tenth Circuit that this is a “superficial distinction.” Levorsen, 828 F.3d at 1229. According to the
plain text of the ADA, that plasma-donation centers
pay donors for their plasma—rather than offer a service
in exchange for compensation—bars them from qualifying as service establishments under § 12181(7)(F).
Therefore, CSL is not a “service establishment, the
ADA’s anti-discrimination provisions are inapplicable
in this case, and CSL is entitled to judgment as a
matter of law.
B. Applicability of the Texas Human Resources
Code
Because this Court grants summary judgment for
CSL on Plaintiffs’ ADA claims, the Court must decide
whether to keep jurisdiction over Plaintiffs’ remaining
Texas law claims. Under 28 U.S.C. § 1367(c), a court
may decline to exercise jurisdiction over a state-law
claim in certain circumstances, including when “the
claim raises a novel or complex issue of state law”
or when “the district court has dismissed all claims
over which it has original jurisdiction.” 28 U.S.C.
§ 1367(c)(1), (3). Although the federal claims giving
rise to this Court’s subject-matter jurisdiction are dismissed, the Court elects to retain supplemental jurisdiction over Plaintiffs’ remaining state-law claims. See
Baker v. Farmers Elec. Co-op., Inc., 34 F.3d 274, 283
(5th Cir. 1994) (“[Supplemental jurisdiction] may continue even after the federal claims upon which jurisdiction is based have been dismissed or rendered moot.)
(citing Hefner v. Alexander, 779 F.2d 277, 281 (5th Cir.
1985)).

32a
THRC § 121.003 provides that “[p]ersons with disabilities have the same right as persons without
disabilities to the full use and enjoyment of any public
facility in the state.” Tex. Hum. Res. Code § 121.003(a).
The Code defines a “public facility,” in part, as a “retail
business, commercial establishment, or office building
to which the general public is invited . . . and any other
place of public accommodation, amusement, convenience, or resort to which the general public or any
classification of persons from the general public is
regularly, normally, or customarily invited.” Tex. Hum.
Res. Code § 121.002(5).
Plaintiffs argue that a plasma-donation center qualifies as a retail business and commercial establishment
to which the general public is invited and, alternatively, under the catchall “other place of public accommodation” to which the general public is regularly invited because the Texas Code’s language is broader
than that of the ADA. See Dkt. No. 35 at 21-22. To
support their argument, they point to the dictionary
definition of “accommodation” as “something supplied
for convenience or to satisfy a need.” Accommodation,
WEBSTER’S NINTH NEW COLLEGIATE DICTIONARY (1990);
see Silguero’s Brief, Dkt. No. 35 at 31.
CSL argues that the Texas Code does not apply
because plasma-donation centers do not invite the
general public to donate; only some potential donors
actually qualify for donation. Dkt. No. 34 at 30. CSL
argues that plasma-donation centers are therefore
similar to prison facilities, which impose strict eligibility requirements, and which the Texas Supreme Court
has held were not public facilities. Id. at 29-30; see
Beeman v. Livingston, 468 S.W.3d 534 (Tex. 2015).
In interpreting a Texas statute, a court “rel[ies] on
the plain meaning of the text unless a different mean-

33a
ing is supplied by statutory definition, is apparent
from the context, or the plain meaning would lead to an
absurd or nonsensical result.” Beeman v. Livingston, 468
S.W.3d 534, 538 (2015) (citing Tex. Lottery Comm’n v.
First State Bank of DeQueen, 325 S.W.3d 628, 635
(Tex. 2010)).
The Texas Supreme Court has clarified that “the
Legislature used the term ‘public’ to indicate a status
of openness and accessibility, and not a public use.”
Beeman v. Livingston, 468 S.W.3d 534, 540. This
understanding is confirmed by § 121.002(5)’s frequent
statements that public facilities are places “to which
the general public is invited.” See Tex. Hum. Res. Code
§ 121.002(5).
The Court concludes that plasma-donation centers
are not public facilities under Texas Human Resources
Code § 121.002(5). First, plasma-donation centers are
not places of public accommodation. An “accommodation” is “something supplied for convenience or to satisfy a need.” Accommodation, WEBSTER’S NINTH NEW
COLLEGIATE DICTIONARY (1990); see also Accommodation, BLACK’S LAW DICTIONARY (10th ed. 2014) (“A
convenience supplied by someone; esp., lodging and
food.”). As this Court notes above, a plasma-donation
center does not supply any good or service for convenience or need. Rather, the donor sells blood plasma
to the center. Because the roles of seller and buyer are
reversed in the plasma-donation context, plasmadonation centers such as CSL do not qualify as places
of public accommodation under Texas Human Resources Code § 121.002(5).
Second, plasma-donation centers are not retail businesses or commercial establishments to which the
general public is invited. Although a plasma-donation
center is arguably a commercial establishment be-

34a
cause it buys blood plasma from those who meet FDA
regulations for eligibility, it does not invite the general
public to donate. At most, it invites the general public
to find out whether they meet the criteria for donating. This does not represent the level of openness
and accessibility reflected in § 121.002(5). Chapter
121.002(5)’s emphasis on places “to which the general
public is invited” refers to whether the general public
are generally invited to obtain the goods or services
provided by a business, public accommodation, or
other public facility. CSL and other plasma-donation
centers do not provide a service for the general public
to purchase—they simply offer to buy plasma from the
eligible few. See Nelson Dep. 30:4-31:3, Dkt. No. 34
APP 39. Therefore, CSL does not qualify as a “public
facility” under § 121.002(5), and the Court grants
CSL’s motion for summary judgment.
IV. Conclusion
For the above reasons, this Court:

 GRANTS Defendant CSL Plasma Inc.’s
Motion for Summary Judgment, Dkt. No.
34;
 STRIKES AS MOOT Plaintiffs’ motions
for summary judgment, Dkt. Nos. 35-36;
 STRIKES AS MOOT Plaintiffs’ Motion to
Preclude Unreliable and Irrelevant
Opinions of Defendant’s Expert John
Nelson, Dkt. No. 46; and
 VACATES all remaining Court settings in
this case.
Judgment in this case will be entered separately in
accordance with Federal Rule of Civil Procedure 58.

35a
The Court ORDERS the Clerk of Court to close this
case after entering the judgment.
SIGNED this 2nd day of November, 2017.
/s/ Hilda Tagle
Hilda Tagle
Senior United States District Judge

36a
APPENDIX D
IN THE SUPREME COURT OF TEXAS
————
No. 18-1022
————
MARK SILGUERO AND AMY WOLFE,
v.

Appellants,

CSL PLASMA, INCORPORATED,
Appellee.
————
On Certified Questions from the
United States Court of Appeals
for The Fifth Circuit
————
Argued March 13, 2019
————
JUSTICE GREEN delivered the opinion of the Court.
In this opinion we consider two questions certified to
this Court by the Fifth Circuit Court of Appeals: (1) Is a
plasma collection center a “public facility” under Texas
Human Resources Code (THRC) section 121.002(5), and
if so, (2) what standard applies for determining whether a public facility’s rejection of a person with a
disability constitutes impermissible discrimination
under the THRC? We hold that a plasma collection
center is a “public facility” under section 121.002(5).
We further hold that a plasma collection center may
reject a person with a disability—eliminating their
opportunity to donate plasma and receive compensa-

37a
tion—without committing impermissible discrimination under section 121.003(a) when: (1) the plasma
center’s rejection does not meet the THRC’s definition
of “discrimination” or satisfies an exception to the
definition of “discrimination,” such as the application
of eligibility criteria that screen out persons with
disabilities, but are shown to be necessary for the
provision of services; or (2) the defendant establishes
that allowing the person with a disability full use and
enjoyment of the public facility would pose a direct
threat to the health or safety of others. See 42 U.S.C.
§ 12182(b)(2)(A)(i), (b)(3).
I. Background
CSL Plasma, Inc. operates plasma collection centers
across the United States. At these centers, CSL extracts the donor’s blood, separates the donor’s plasma
from the red blood cells, and then returns the red blood
cells to the donor’s bloodstream.1 After this extraction
process, CSL compensates the donor,2 processes the
plasma to create a marketable plasma byproduct,
and ultimately sells this byproduct to pharmaceutical
1

Both the district court and the Fifth Circuit Court of Appeals
are cautious about using the words “donate” or “donor” in this
context because the individuals (or donors) receive compensation
for supplying their plasma and are therefore not making a donation in the ordinary sense of the term. See 907 F.3d 323, 325 n.1
(5th Cir. 2018). This opinion uses the term “donor” and similar
words, as the Fifth Circuit did, to follow the terminology in the
plasma industry, and it refers to the facilities at issue as “plasma
collection centers,” as the Fifth Circuit did.
2

Amicus curiae Plasma Protein Therapeutics Association, whose
members operate more than 750 plasma collection centers, makes
a point to say that plasma collection centers do not pay donors for
their plasma; rather, the “compensation is for their time and inconvenience, not a quid pro quo for their plasma.”

38a
companies. The federal Food and Drug Administration
(FDA) regulates this plasma extraction process. The
FDA licenses and audits plasma collection centers.
Under the FDA’s regulations, CSL must screen all
potential donors to determine whether each individual
is eligible to donate. See 21 C.F.R. § 630.10. During the
screening, potential donors answer health-related
questions, and CSL’s medical staff, referring to CSL’s
medical guidelines, determine their eligibility by
checking their vital signs and considering their
medical history, current medications, and whether
they have recent tattoos. For example, CSL’s medical
guidelines on eligibility provide that if a potential
donor suffers from anxiety requiring the use of a service dog, he or she is ineligible to donate. CSL’s medical staff is permitted to contact CSL physicians to
discuss particular potential donors. Individuals who
fail the screening are deferred, meaning they are not
permitted to donate and receive no compensation.
Mark Silguero and Amy Wolfe were potential donors
at CSL.
Silguero suffers from bad knees and uses a cane.
CSL and Silguero agree that Silguero qualifies as a
person with disabilities under the Americans with
Disabilities Act (ADA) and the THRC. Silguero had
previously donated plasma at CSL between January
and April 2014. Silguero attempted to donate again on
January 2, 2015. At that time, the condition of Silguero’s
knees had worsened to the point of needing knee
replacements. Silguero went through CSL’s donorscreening process, and CSL informed him that he
would be deferred and unable to donate that day.
Silguero claims he was deferred because of his “unsteady gait” and because CSL believed that he could not
transfer safely to and from the donation bed. Silguero
became upset, shook his finger at the medical staff,

39a
and told them they would be sorry. As a result, CSL
deferred Silguero permanently, banning him from
donating at CSL.
Wolfe suffers from an anxiety disorder and utilizes
a service dog to improve her symptoms. Having never
donated at CSL before, Wolfe went to CSL to donate
plasma on October 9, 2016. Both CSL and Wolfe agree
that Wolfe qualifies as a person with a disability under
the ADA and the THRC. CSL did not allow Wolfe to
donate because she required a service animal to treat
her anxiety. In deferring her, CSL relied on its guidelines that a person is ineligible to donate if they suffer
from anxiety requiring the use of a service dog.
Silguero filed suit against CSL in federal court on
August 24, 2016, alleging unlawful discrimination on
the basis of his disability. He sought injunctive relief
under Title III of the ADA and both injunctive relief
and damages under chapter 121 of the THRC. The
district court allowed Wolfe to intervene as a plaintiff
on March 28, 2017, because her claims against CSL for
disability discrimination presented common questions
of fact and law. On August 14, 2017, each side moved
for summary judgment. CSL argued that it was
neither a place of “public accommodation” under the
ADA, because it did not qualify as a “service establishment,” nor a “public facility” under the THRC. It further asserted that Silguero and Wolfe (collectively, the
“plaintiffs”) could not establish a genuine issue of
material fact as to whether CSL fell under the ADA or
THRC. The plaintiffs argued that a plasma collection
center falls within the plain meaning of “service
establishment” under the ADA because it is simply an
establishment that provides a service. The plaintiffs
cited a Tenth Circuit Court of Appeals case in support
of this argument. See Levorsen v. Octapharma Plasma,

40a
Inc., 828 F.3d 1227, 1234 (10th Cir. 2016) (holding that
a plasma collection center was a “service establishment” under the ADA). Under the THRC, the plaintiffs
argued that a plasma collection center qualifies as a
retail business and commercial establishment to which
the general public is invited or, alternatively, as an
“other place of public accommodation.”
The district court granted summary judgment in
favor of CSL. No. 2:16-CV-361, 2017 WL 6761818, at
*1 (S.D. Tex. Nov. 3, 2017) (slip copy). The district
court first concluded that a plasma collection center is
not a place of “public accommodation” under section
12181(7) of the ADA. Id. at *4. The court reasoned
that plasma collection centers are not “other service
establishment[s]” under section 12181(7)(F) because
they pay donors for their plasma rather than offering
a service in exchange for compensation. Id.
Having decided that the ADA does not apply, the
district court elected to maintain supplemental jurisdiction over the plaintiffs’ state law claims. See id. at
*5 (citing Baker v. Farmers Elec. Coop., Inc., 34 F.3d
274, 283 (5th Cir. 1994)). Explaining that the THRC
provides for persons with disabilities to have full use
and enjoyment of a public facility in Texas, the court
analyzed whether a plasma collection center falls
within the meaning of “public facility” under the THRC.
Id.; see also TEX. HUM. RES. CODE § 121.003(a). The
court looked to the plain meaning of “public facility”
under the THRC, concluding that a plasma collection
center does not qualify as a public facility because it is
not a place of public accommodation under section
121.002(5). 2017 WL 6761818, at *5. Specifically, the
court reasoned:
[A] plasma-donation center does not supply any
good or service for convenience or need. Rather,

41a
the donor sells blood plasma to the center. Because the roles of seller and buyer are reversed
in the plasma-donation context, plasmadonation centers such as CSL do not qualify
as places of public accommodation under Texas
Human Resources Code § 121.002(5).
Id. The district court also reasoned that the public is
not generally invited to a plasma collection center. Id.
at *6. It noted that although a plasma collection center
is arguably a commercial business, it only purchases
plasma from those who pass the screening, and it does
not invite the general public, in its entirety, to donate;
“[a]t most, it invites the general public to find out
whether they meet the criteria for donating.” Id.
Therefore, the district court determined that a plasma
collection center does not represent the open and
accessible nature of the establishments listed in
section 121.002(5) and could not be considered a public
facility under the THRC. Id.
The Fifth Circuit affirmed the district court’s holding that a plasma collection center is not an “other
service establishment” under the ADA. 907 F.3d 323,
332 (5th Cir. 2018). After concluding that the ADA
does not apply to a plasma collection center, the Fifth
Circuit certified questions to this Court as to whether
the THRC governs plasma collection centers such as
CSL’s. Id. at 333. Those questions are:
1. Is a plasma collection center [like those
operated by CSL] a “public facility” under
Texas Human Resources Code § 121.002(5)?
2. If so, would Texas law allow the plasma
collection center to reject a “person with
a disability,” see TEX. HUM. RES. CODE
§ 121.002(4), based on the center’s con-

42a
cerns for the individual’s health that stem
from the disability? What standard would
apply to determining whether the plasma
collection center properly rejected the person, rather than committed impermissible
discrimination under Texas Human Resources Code § 121.003(a)?
Id. We accepted the certified questions. 62 Tex. Sup.
Ct. J. 90 (Oct. 26, 2018).
II. Texas Human Resources Code Chapter 121
Chapter 121 of the THRC, which was enacted before
and differs substantially from its federal counterpart
in the ADA, embodies the purpose of “encourag[ing]
and enabl[ing] persons with disabilities to participate
fully in the social and economic life of the state, to
achieve maximum personal independence, . . . and use
all public facilities available within the state.” TEX.
HUM. RES. CODE § 121.001; see also Americans with
Disabilities Act of 1990, Pub. L. No. 101-336, 104 Stat.
327 (codified at 42 U.S.C. ch. 126); Act of May 20, 1969,
61st Leg., R.S., ch. 416, 1969 Tex. Gen. Laws 1374
(codified at TEX. HUM. RES. CODE ch. 121). The
Legislature has instructed that the provisions of
THRC chapter 121 are to be “construed in a manner
compatible with other state laws relating to persons
with disabilities.” TEX. HUM. RES. CODE § 121.009.
Additionally, the statute “shall be liberally construed
to achieve [its] purpose and to promote justice.” TEX.
GOV’T CODE § 312.006(a).
The THRC provides that “[p]ersons with disabilities
have the same right as persons without disabilities to
the full use and enjoyment of any public facility in the
state.” TEX. HUM. RES. CODE § 121.003(a) (emphasis
added). Specifically:

43a
(c) No person with a disability may be denied
admittance to any public facility in the state
because of the person’s disability. No person
with a disability may be denied the use of a
white cane, assistance animal, wheelchair,
crutches, or other device of assistance.
(d) The discrimination prohibited by this
section includes a refusal to allow a person
with a disability to use or be admitted to any
public facility, a ruse or subterfuge calculated
to prevent or discourage a person with a
disability from using or being admitted to a
public facility, and a failure to:
(1) comply with Chapter 469, Government Code;
(2) make reasonable accommodations in
policies, practices, and procedures; or
(3) provide auxiliary aids and services
necessary to allow the full use and enjoyment of the public facility.
Id. § 121.003(c), (d)(1)–(3) (emphasis added). The THRC
defines “public facility” as including:
a street, highway, sidewalk, walkway, common carrier, airplane, motor vehicle, railroad
train, motor bus, streetcar, boat, or any other
public conveyance or mode of transportation;
a hotel, motel, or other place of lodging; a
public building maintained by any unit or
subdivision of government; a retail business,
commercial establishment, or office building
to which the general public is invited; a
college dormitory or other educational facility; a restaurant or other place where food is

44a
offered for sale to the public; and any other
place of public accommodation, amusement,
convenience, or resort to which the general
public or any classification of persons from
the general public is regularly, normally, or
customarily invited.
Id. § 121.002(5). A “person with a disability” is a person who has “a mental or physical disability,” “an
intellectual or developmental disability,” “a hearing
impairment,” “deafness,” “a speech impairment,” “a visual impairment,” “post-traumatic stress disorder,” or
“any health impairment that requires special ambulatory devices or services.” Id. § 121.002(4)(A)–(H).
The THRC expressly requires that persons with
disabilities have the same use and enjoyment of
“public facilities” as non-disabled persons—more specifically, a public facility cannot deny admittance to a
person with a disability because of his or her disability, deny a person with a disability use of a device of
assistance, such as an assistance animal, and must
make reasonable accommodations in policies, practices, and procedures, providing support and services
to allow the person with a disability full use and
enjoyment of the facility. Id. § 121.003(a), (c), (d)(1)–(3).
In answering certified questions, we are limited to
answering only the questions before us. See, e.g.,
Amberboy v. Societe de Banque Privee, 831 S.W.2d 793,
798 (Tex. 1992) (“[A] certified question is a limited
procedural device that constrains us to answer only
the question certified ‘and nothing more.’” (citation
omitted)). Both certified questions present issues of
statutory interpretation of THRC chapter 121.3 We
3

To answer only the questions certified to us, we must not consider the facts relating to the plaintiffs or to CSL, and we instead

45a
review issues of statutory construction de novo. E.g.,
Harris Cty. Appraisal Dist. v. Tex. Workforce Comm’n,
519 S.W.3d 113, 118 (Tex. 2017) (citations omitted);
Molinet v. Kimbrell, 356 S.W.3d 407, 411 (Tex. 2011)
(citation omitted). In construing statutes, our primary
objective is to give effect to the Legislature’s intent.
E.g., Lippincott v. Whisenhunt, 462 S.W.3d 507, 509
(Tex. 2015) (per curiam) (citation omitted); Molinet,
356 S.W.3d at 411 (citation omitted). “It is the Legislature’s prerogative to enact statutes; it is the judiciary’s
responsibility to interpret those statutes according to
the language the Legislature used, absent a context
indicating a different meaning or the result of the
plain meaning of the language yielding absurd or
nonsensical results.” Molinet, 356 S.W.3d at 414–15
(citing TEX. GOV’T CODE § 311.011(a), which explains
that words and phrases shall be read in context and
construed according to rules of grammar and common
usage).
In interpreting statutes, we must look to the plain
language, construing the text in light of the statute as
a whole. See id. at 411 (citation omitted); see also
Janvey v. Golf Channel, Inc., 487 S.W.3d 560, 572
(Tex. 2016) (citation omitted). A statute’s plain language is the most reliable guide to the Legislature’s
intent. See Sullivan v. Abraham, 488 S.W.3d 294, 299
(Tex. 2016) (quoting Prairie View A&M Univ. v.
Chatha, 381 S.W.3d 500, 507 (Tex. 2012)). The statutory terms bear their common, ordinary meaning, unless the text provides a different meaning or the
common meaning leads to an absurd result. See Fort
Worth Transp. Auth. v. Rodriguez, 547 S.W.3d 830,
must decide, as a general matter, whether a plasma collection
center qualifies as a public facility, recognizing that the structure
of plasma collection centers and their policies can vary.

46a
838 (Tex. 2018) (citation omitted). This Court may not
impose its own judicial meaning on a statute by adding
words not contained in the statute’s language. See
Lippincott, 462 S.W.3d at 508. If the statute’s plain
language is unambiguous, we interpret its plain
meaning, presuming that the Legislature intended for
each of the statute’s words to have a purpose and that
the Legislature purposefully omitted words it did not
include. See id. at 509 (citation omitted); Janvey, 487
S.W.3d at 572 (reviewing a certified question and
explaining that the Court’s “primary objective in construing a statute is to ascertain and effectuate the
Legislature’s intent without unduly restricting or
expanding the statute’s scope” (citation omitted)). The
statutory words must be determined considering the
context in which they are used, not in isolation. See
Greater Hous. P’ship v. Paxton, 468 S.W.3d 51, 59
(Tex. 2015) (citations omitted).
III. “Public Facility” Under the Texas
Human Resources Code
We begin by considering the first certified question:
Is a plasma collection center a “public facility” under
THRC section 121.002(5)? The plaintiffs argue that a
plasma collection center, such as those operated by
CSL, qualifies as a “public facility” under the THRC.
Specifically, the plaintiffs argue that a plasma collection center invites the general public to engage in the
commercial transaction of giving plasma in exchange
for payment. The fact that some individuals are determined to be ineligible to donate is of no consequence,
according to the plaintiffs, because the plasma collection center is inviting the general public to donate,
public facilities often have certain screening rules, and
the THRC applies to facilities that invite “any classification of persons from the general public.”

47a
On the other hand, CSL argues that the Legislature
did not intend to apply the THRC to a plasma collection center, such as CSL’s, and that a plasma collection
center differs from an establishment with an open
invitation for the public to visit the premises and
receive a product or service in exchange for payment.
Although the ADA and THRC differ, CSL argues that
the district court’s and the Fifth Circuit’s reasoning in
determining that a plasma collection center is not a
place of public accommodation should likewise lead to
the conclusion that a plasma collection center is not a
“public facility” under the THRC.
The Legislature’s definition of “public facility” is
broad. See TEX. HUM. RES. CODE § 121.002(5). The THRC
provides an extensive definition of “public facility”
with seven enumerated lists, each followed by a catchall phrase.4 See id. But that definition of “public facility” includes the word “public” seven times and defines
“facility” in terms of the lists of examples of what
“‘public facility’ includes.” See id. We often look to
dictionary definitions to shed light on the ordinary
meaning of a statutory term. See Beeman v. Livingston,
468 S.W.3d 534, 539 (Tex. 2015). “Public” means
“accessible to or shared by all members of the community,” “a place accessible or visible to all members of
the community.” See Public, WEBSTER’S THIRD NEW
INTERNATIONAL DICTIONARY (2002). “Facility” is defined as “something that is built, constructed, installed, or established to perform some particular
4

The enumerated lists in the THRC, however, are not nearly
as specific and comprehensive as the list in the ADA, which
specifies types of businesses. Compare 42 U.S.C. § 12181(7)(A)–
(L), with TEX. HUM. RES. CODE § 121.002(5). The THRC contains
broader, more general terms for modes of transportation, businesses, and establishments. See TEX. HUM. RES. CODE § 121.002(5).

48a
function or to serve or facilitate some particular end.”
See Facility, WEBSTER’S THIRD NEW INTERNATIONAL
DICTIONARY (2002). In defining “public facility” in the
THRC, the Legislature has narrowed the plain language to broad categories. See generally TEX. HUM.
RES. CODE § 121.002(5).
Two of the THRC’s categories are potentially applicable to a plasma collection center: “a retail business,
commercial establishment, or office building to which
the general public is invited”; and “any other place of
public accommodation, amusement, convenience, or
resort to which the general public or any classification
of persons from the general public is regularly, normally, or customarily invited.” Id. We first analyze
whether a plasma collection center falls under the
THRC’s definition of “public facility” as a “retail
business, commercial establishment, or office building
to which the general public is invited.” Id. More specifically, the question is whether a plasma collection center is a “commercial establishment . . . to which the
general public is invited.” Id.
“Commercial” is not defined in the THRC, but it is
generally defined as being related to or dealing with
commerce. See Commercial, WEBSTER’S THIRD NEW
INTERNATIONAL DICTIONARY (2002); Commerce, WEBSTER’S THIRD NEW INTERNATIONAL DICTIONARY (2002)
(“[T]he exchange or buying and selling of commodities
especially on a large scale and involving transportation from place to place.”). And “establishment” is
defined as “a public or private institution.” See
Establishment, WEBSTER’S THIRD NEW INTERNATIONAL
DICTIONARY (2002). Plasma collection centers are forprofit businesses that extract plasma, compensate
donors, and package and ship plasma for it to be processed and sold. Under the plain language of the

49a
statute, a plasma collection center, of the type operated by CSL, is a commercial establishment, as plasma collection centers are profit-oriented, private
institutions that deal in the commerce of extracting and
selling plasma and plasma byproducts. See Rodriguez,
547 S.W.3d at 838 (providing that statutory terms
bear their common, ordinary meaning, unless the text
provides a different meaning or the common meaning
leads to an absurd result).
Although we conclude that a plasma collection center is a “commercial establishment,” the crux of the
issue as to whether a plasma collection center is a
“public facility” under the THRC is whether it is a
facility to which the general public is ordinarily invited. There is no question that a plasma collection
center invites the general public into its business to
engage in the donation-screening process to determine
donation eligibility. But CSL argues that because a
plasma collection center allows only individuals who
pass the screening process to donate and reserves the
right to reject certain individuals, the general public is
not invited to donate plasma. Therefore, we must
determine whether, under the plain meaning of the
THRC, a facility is public by virtue of its general invitation for anyone to enter and be screened, or whether
such a facility is nevertheless excluded from the definition of “public facility” because its invitation to donate
plasma is restricted and limited.
The plain language of the terms “invite,” “invitation,” and “invited” suggests that allowing any member of the general public to enter a facility and be
present for, or participate in, a screening process is
“inviting” the member of the public. See Invite,
WEBSTER’S THIRD NEW INTERNATIONAL DICTIONARY
(2002) (meaning “to offer an incentive or inducement”;

50a
“to provide opportunity or occasion for”; “open the
way”; “increase the likelihood of”; “open the door”);
Invitation, WEBSTER’S THIRD NEW INTERNATIONAL
DICTIONARY (2002) (meaning “the requesting of a
person’s company or participation”; “a written or
verbal request to be present or participate”; “a written
or verbal request to do or undertake”); Invited, WEBSTER’S THIRD NEW INTERNATIONAL DICTIONARY (2002)
(meaning “present or done by invitation”). It follows
that the plain language of the THRC’s definition of
“public facility”—specifically, a “commercial establishment . . . to which the general public is invited”—
means that a member of the general public is “invited”
by a plasma collection center when it merely opens the
door to them, allowing them to be present in the
facility and providing them the opportunity to participate in the plasma donation process, beginning with
screening. See TEX. HUM. RES. CODE § 121.002(5). And
as such, a member of the public need not actually be
able to engage in a business transaction—that is, plasma extraction and resulting compensation—to be “invited” to the commercial establishment. See generally
id.
Here, CSL, like other plasma collection centers, extends an invitation to all members of the public to
enter its collection facilities and engage in the donor
screening process. In fact, a plasma collection center,
such as CSL’s facilities, desires to admit and screen as
many potential donors as possible to increase the number of donors, in turn increasing the supply of plasma
that can be processed and ultimately sold for profit.5
5

In explaining that CSL would not defer a blind individual
merely because of his or her disability, counsel for CSL admitted
that CSL needs as many members of the public as possible to
donate plasma.

51a
That a plasma collection center may not then invite all
who accepted the initial invitation—made to the
general public—to participate further in the plasma
donation process, by allowing them to donate and receive compensation, is of no consequence. At that point,
the plasma collection center, a commercial establishment, has already invited the general public into its
facility for a commercial opportunity. Thus, the plasma
collection center’s selectivity in extending donation
invitations has no bearing on whether CSL is a “public
facility” under the THRC. Under the plain language of
the statute, as long as the facility is a commercial
establishment to which the general public is invited
for some purpose, it is a “public facility” subject to the
THRC.6 See id.
In Beeman v. Livingston, in which deaf inmates at a
state prison filed suit under the THRC, this Court held
that the prison was not a “public facility” subject to the
THRC. 468 S.W.3d at 543. The inmates claimed that
the prison violated the THRC by denying deaf inmates
an opportunity to participate in and benefit from
certain programs available to inmates without disabilities. Id. at 536. They appealed to this Court, asserting that the court of appeals misconstrued the phrase
“public building” within the THRC’s definition of “public facility.” Id. at 537. The inmates argued that under
the plain meaning of “public building” in section
6

We note that there is no indication in our record as to the
physical structure of CSL’s plasma collection centers, whether
Silguero and Wolfe attempted to donate at the same facility or
different facilities, or the extent to which CSL’s plasma collection
centers may differ in structure from one to the next. We limit our
answer to the question before us, which asks generally about
plasma collection centers of the type described in the certified
question.

52a
121.002(5), a building must be used for a public purpose, but need not be open and accessible to the
general public. Id. We concluded that “construing the
term ‘public facility’ to include prisons [did] not reflect
[the] legislative intent as expressed in the term’s
definition and the statute as a whole.” Id. at 539.
When looking to the definition of “public facility” as a
whole and the plain language, we concluded that the
“Legislature used the term ‘public’ to indicate a status
of openness and accessibility, and not a public use.” Id.
at 540. “[E]ven assuming inmates are part of the
public,” we noted that nothing in the statute indicates
that the “Legislature intended for one small subset of
the public that is involuntarily segregated from the
public and has seriously constricted freedoms (i.e.
[prison] inmates) [to] qualif[y] as the ‘public’—the
community as a whole.” Id. at 542. Additionally, we
noted that section 121.002(5)’s use of “public building”
and “a building to which the general public is invited”
could not have the same meaning. Id. at 540. The
phrase “a building to which the general public is
invited” includes “privately owned buildings that are
not public buildings because they are maintained for
private purposes, but to which the premises owner has
extended an invitation to the general public.” Id. at
541. This differs from a public building maintained by
the government, such as a prison. See id. at 541–42.
Beeman’s plain language definition of “public”—
open and accessible to the general population—applies
with equal force to this certified question. As we observed in Beeman, prison inmates are not the general
public—though they may be a small part of it—and
prisons are not generally open to persons who are not
inmates, with the exception of certain prison personnel and employees. See id. at 542. Unlike prisons,
which confine inmates and separate them from the

53a
general public, a plasma collection center is a commercial establishment which offers anyone the opportunity to initiate the plasma donation process, beginning with eligibility screening. As part of its public
invitation, a plasma collection center offers an incentive—compensation for those eligible donors whose
plasma is extracted—to help increase the number of
donors and the amount of plasma byproduct that can
be sold for profit. A plasma collection center is not open
only to certain members of the population—it is open
to everybody, though the extraction process is limited
to those who are eligible based on the screening
process.7 This is consistent with Beeman’s analysis
that “a building to which the general public is invited”
includes privately owned buildings to which the
“owner has extended an invitation to the general
public.” Id. at 541.
CSL argues that the THRC’s definition of “public
facility” should be construed in the same manner as
7

To be clear, the fact that a facility meets the definition of a
“public facility” under the THRC does not mean that the public
must be invited to all areas of the facility, nor does it mean that
the facility must allow persons with disabilities full use and
enjoyment of all parts of the facility. Indeed, most public facilities
will necessarily have areas the public is not permitted to use or
enjoy; in those areas, excluding persons with disabilities from use
and enjoyment does not constitute discrimination under the
THRC because all members of the general public are equally
excluded. See TEX. HUM. RES. CODE § 121.003(a) (reciting the
general discrimination prohibition under which “[p]ersons with
disabilities have the same right as persons without disabilities to
the full use and enjoyment of any public facility in the state”); see
also Sapp v. MHI P’ship, Ltd., 199 F. Supp. 2d 578, 588–89 (N.D.
Tex. 2002) (holding that a model home that was not designed to
be used exclusively as a private residence, and that contained an
office to which the general public was invited, made it a “public
facility” under the THRC).

54a
the corresponding ADA definition of place of “public
accommodation” in determining whether a plasma
collection center qualifies as a “public facility.” Compare TEX. HUM. RES. CODE § 121.002(5), with 42 U.S.C.
§ 12181(7)(A)–(L). But we held in Beeman that the
ADA’s definition did not apply to the Court’s analysis
of the THRC’s definition of “public facility.” See 468
S.W.3d at 542–43 (explaining that the ADA’s definition of “public entity” was not informative to the
Court’s analysis as to the THRC’s meaning of “public
facility”). We explained that the THRC’s definition of
“public facility” was enacted in 1969, while the ADA
was enacted in 1990, and that any amendments to the
THRC did not show a legislative intent to align the
THRC’s definition of “public facility” with the ADA’s
definition of “public entity.” See id. (citing Act of May
20, 1969, 61st Leg., R.S., ch. 416, § 2, 1969 Tex. Gen.
Laws 1374, 1375 (amended 2013) (current version at
TEX. HUM. RES. CODE § 121.002(5))). Likewise, here,
the ADA’s definition of “public accommodation” was
enacted after the THRC and is reflected in the THRC
only through its definition of “public facility” as
“any other place of public accommodation.” Compare
TEX. HUM. RES. CODE § 121.002(5), with 42 U.S.C.
§ 12181(7)(A)–(L). Consistent with our reasoning in
Beeman, we conclude that the ADA’s definition of
“public accommodation” does not inform the THRC’s
definition of “public facility” as a “commercial establishment . . . to which the general public is invited.”
Compare TEX. HUM. RES. CODE § 121.002(5), with 42
U.S.C. § 12181(7)(A)–(L).8 Because we hold that a plas8

We note that even if we were to look to the ADA’s definition
of “public accommodation” and the federal case law interpreting
it, there is a federal circuit court split as to whether a plasma
collection center falls within the ADA’s definition of “public
accommodation.” Compare 907 F.3d at 329–31 (holding that a

55a
ma collection center of the type operated by CSL
qualifies as a “public facility” under the THRC as a
“commercial establishment . . . to which the general
public is invited,” we need not determine whether a
plasma collection center also qualifies as a “public
facility” as “any other place of public accommodation . . .
to which the general public or any classification
of persons from the general public is regularly,
normally, or customarily invited.” TEX. HUM. RES.
CODE § 121.002(5).
We conclude that a business’s selectivity as to whom
it ultimately conducts business with does not take it
out of the purview of the THRC’s definition of “public
facility.” The Legislature broadly defined “public facility,” and we cannot unduly restrict or expand the scope
of the THRC. See Janvey, 487 S.W.3d at 572; see also
Lippincott, 462 S.W.3d at 508 (explaining that a court
may not impose its own judicial meaning onto a statute). The question of whether a plasma collection
center discriminates unlawfully by screening out certain members of the general public, denying particular
individuals the opportunity to donate plasma because
of their specific disabilities, is relevant not to the
applicability of the THRC’s “public facility” definition,
but to the standards that apply under the THRC.
IV. Texas Human Resources Code
Discrimination Standards
Because we hold that a plasma collection center
qualifies as a “public facility” under the THRC, we
plasma collection center is not a “service establishment” and
therefore does not fall under the ADA’s definition of “public
accommodation”), with Levorsen, 828 F.3d at 1234–35 (holding
that a plasma collection center is a “service establishment” and
falls under the ADA’s definition of “public accommodation”).

56a
next must answer the question of what standard the
THRC provides in determining whether a public facility unlawfully discriminates against a person with a
disability. In other words, can a plasma collection
center of the type operated by CSL ever justify
excluding a potential donor based on health concerns
related to the individual’s disability?9 At the outset, we
note that the answer to this question applies only to
facilities that do not fall under the ADA’s definition of
“public accommodation” but meet the THRC’s definition of “public facility.” Practically speaking, this
situation is uncommon; the ADA applies to most public
facilities, and therefore the potential implications of
the answer to this question are significant only insofar
as they relate to the unusual public facility that is not
subject to the ADA’s standards.
In construing a statute, our primary goal is to ascertain the Legislature’s intent. See, e.g., Janvey, 487
S.W.3d at 572 (citation omitted); Molinet, 356 S.W.3d
at 411 (citation omitted). The THRC provides that
“[p]ersons with disabilities have the same right as
persons without disabilities to the full use and enjoyment of any public facility in the state.” TEX. HUM.
RES. CODE § 121.003(a). “No person with a disability
may be denied admittance to any public facility . . .
9

We do not answer whether CSL unlawfully discriminated
against Silguero and Wolfe in denying them full use and enjoyment of CSL’s public facility. Nor do we address any structural,
physical, or architectural standards CSL, or plasma collection
centers generally, must satisfy to accommodate persons with disabilities. And we do not address any physical exclusion from CSL’s
facility, as the plaintiffs allege no such exclusion, but contend
only that they were deprived full use and enjoyment of the facility
by CSL’s rejecting them from the plasma donation process. These
questions are beyond the scope of the questions certified to this
Court.

57a
because of the person’s disability,” and he or she may
not be denied the “use of a white cane, assistance animal, wheelchair, crutches, or other device of assistance.” Id. § 121.003(c). Discrimination that violates
the THRC includes a “refusal to allow a person with a
disability to use or be admitted to any public facility,
[and] a ruse or subterfuge calculated to prevent or
discourage a person with a disability from using or
being admitted to a public facility.” Id. § 121.003(d). A
public facility also violates the THRC if it fails to: (1)
comply with the architectural barrier standards in
Texas Government Code chapter 469; (2) “make
reasonable accommodations in policies, practices, and
procedures”; or (3) “provide auxiliary aids and services
necessary to allow the full use and enjoyment of the
public facility.” Id. § 121.003(d)(1)–(3). Additionally,
section 121.003(e) provides:
Regulations relating to the use of public facilities by any designated class of persons from
the general public may not prohibit the use of
particular public facilities by persons with
disabilities who, except for their disabilities
or use of assistance animals or other devices
for assistance in travel, would fall within the
designated class.
Id. § 121.003(e).
Silguero contends that he was discriminated against
on the basis of his disability when CSL did not allow
him to donate plasma because he has bad knees,
requiring use of a cane, and CSL believed that he
might not be able to maneuver himself to and from the
donation bed. He does not allege that CSL denied him
use of his cane, nor does he allege that he was denied
entrance into the facility. Wolfe claims that CSL discriminated against her on the basis of her anxiety,

58a
deferring her solely because her use of a service dog
indicated that she was severely anxious. Wolfe does
not allege that CSL rejected her because it could not
accommodate her use of a service dog at the facility,
nor does she allege that she was denied entrance into
the facility because of her use of a service dog. And
CSL points to its policy to defer potential donors who
suffer from anxiety requiring the use of a service dog,
citing safety concerns about a donor having an anxiety
attack while undergoing the extraction process.
Whether CSL violated the THRC in discriminating
against the plaintiffs turns on whether CSL can deny
the plaintiffs use and enjoyment of a public facility by
excluding them from donating plasma on the basis of
their disabilities, citing safety concerns or difficulties
in carrying out the plasma extraction process. Thus,
the question is whether a plasma collection center
violates the THRC when it concludes that a potential
donor’s disability makes him or her unfit, and therefore ineligible, to donate plasma. The Fifth Circuit
asks specifically about the standard for determining
whether a plasma collection center’s rejection of a
potential donor would violate the broad prohibition
against discrimination in section 121.003(a)—in other
words, can a public facility lawfully deprive a person
with a disability of full use and enjoyment of the
facility? See TEX. HUM. RES. CODE § 121.003(a) (“Persons with disabilities have the same right as persons
without disabilities to the full use and enjoyment of
any public facility in the state.”).
Here, the parties agree that certain health concerns
and disabilities can justify exclusion from the use and
enjoyment of a public facility. The plaintiffs advocate
for a standard under which an exclusion is justified if
(1) the reason given is not pretextual, and (2) serving

59a
the individual poses a direct threat, would result in an
undue burden on the facility, or the facility would be
required to fundamentally alter its services to serve
the person with a disability. CSL advocates for a more
liberal standard—that if the public facility articulates
a legitimate business purpose for exclusion from use
and enjoyment based on a disability, it does not violate
the THRC. Thus, the parties agree that the THRC is
not a strict liability statute and that a public facility
may lawfully deprive persons with disabilities from
use or enjoyment of a public facility under certain
circumstances; however, the parties disagree as to the
circumstances.
In interpreting the applicability of the THRC’s antidiscrimination standards, we must be mindful of the
statute’s context and its meaning as a whole. See
Fitzgerald v. Advanced Spine Fixation Sys., Inc., 996
S.W.2d 864, 866–67 (Tex. 1999) (indicating that
judicial interpretation of a statute involves using its
context and any implicit meaning contained in the
language). Unlike the ADA, the THRC does not contain specific exemptions that expressly allow for lawful discrimination under certain circumstances. Cf. 42
U.S.C. § 12182(b)(2)(A)(i)–(iii), (b)(3) (excluding certain
conduct from the definition of discrimination in the
case of necessary eligibility criteria, undue burden,
and fundamental alteration in goods or services provided, and excusing discrimination when there is a
direct threat to the health or safety of others). However, the plain language of the THRC demonstrates
that the Legislature did not intend a strict liability
anti-discrimination standard. As we have explained,
the Legislature set out a broad prohibition on discrimination in section 121.003: “Persons with disabilities
have the same right as persons without disabilities
to the full use and enjoyment of any public facility

60a
in the state.” TEX. HUM. RES. CODE § 121.003(a).
Re-emphasizing the right to full use and enjoyment of
public facilities, section 121.003(d) provides examples of
discrimination prohibited by the THRC. Id. § 121.003(d).
Among those examples is the “refusal to allow a person
with a disability to use or be admitted to any public
facility”—fully consistent with the broad discrimination prohibition in section 121.003(a). Id. The statute
goes on to list other conduct that constitutes prohibited discrimination under the THRC. Id.
The plain language of the THRC indicates an intent
to prohibit pretextual discrimination—since its enactment in 1969, section 102.003(d) has provided that the
discrimination prohibited by the THRC includes “a
ruse or subterfuge calculated to prevent or discourage
a person with a disability from using or being admitted
to a public facility.” Id.; see also Act of May 20, 1969,
61st Leg., R.S., ch. 416, § 3, 1969 Tex. Gen. Laws 1374,
1375 (amended 1997 & 2013) (current version at TEX.
HUM. RES. CODE § 121.003(d)) (originally referring to
a person with a disability as a “handicapped person,”
however). “Ruse” is not defined in the THRC, but it
means “trick” or “intended to deceive.” See Ruse, WEBSTER’S THIRD NEW INTERNATIONAL DICTIONARY (2002).
And “subterfuge” means “deception by artifice or stratagem to conceal, escape, avoid, or evade,” or “a deceptive device or stratagem” that “is resorted to in order
to save face.” See Subterfuge, WEBSTER’S THIRD NEW
INTERNATIONAL DICTIONARY (2002). Therefore, under
its plain language, the THRC prohibits a public facility
from using tricks or deceptive devices to avoid or evade
admitting, or accommodating, a person with a disability. That is, the THRC prohibits pretextual excuses for
excluding persons with disabilities from equal use and
enjoyment of a public facility. See TEX. HUM. RES.
CODE § 121.003(d); see also Farley v. Nationwide Mut.

61a
Ins., 197 F.3d 1322, 1336 (11th Cir. 1999) (referring to
the ADA’s prohibition of “pretextual ruse[s] designed
to mask retaliation” (citation omitted)); Bohrer v.
Hanes Corp., 715 F.2d 213, 218 (5th Cir. 1983)
(reasoning that the defendant’s actions cannot be “a
pretext or ruse designed to conceal a discriminatory
motive” in an employment discrimination claim
(citation omitted)); Hamashiach v. Adan, No. 14-1300491-CV, 2015 WL 971217, at *6 (Tex. App.—
Houston [14th Dist.] Mar. 3, 2015, no pet.) (mem. op.)
(holding that evidence of a church’s decision to issue
ecclesiastical discipline against one of its disabled
congregants, banning her from the church for six
weeks, showed that the decision was not a ruse or
subterfuge to avoid accommodating her disability
under the THRC, but rather a punishment because of
her threatening tone to the pastor). In doing so, the
THRC accounts for the existence of certain acceptable,
legitimate reasons for which a public facility may
deprive persons with disabilities of full use or
enjoyment of a public facility.10
10

In fact, the Legislature’s use of this “ruse or subterfuge” language since it enacted the predecessor to section 121.003, decades
before Congress enacted the ADA, shows that the Legislature has
long intended that defendants not be liable for certain discriminatory conduct, provided that their reason is not pretextual. See Act
of May 20, 1969, 61st Leg., R.S., ch. 416, § 3, 1969 Tex. Gen. Laws
1374, 1375 (amended 1997 & 2013) (current version at TEX. HUM.
RES. CODE § 121.003(d)) (“The discrimination prohibited by this
section includes . . . discrimination based on a ruse or subterfuge
calculated to prevent or discourage a handicapped person from
using or being admitted to a public facility.”). The prohibition of
“ruse or subterfuge” discrimination has never changed in the statute’s fifty-year history, but as we explain below, the amendment
to section 121.003(d) following enactment of the ADA—including
the addition of the three-part “failure to” list—further confirms
the Legislature’s intent that certain discriminatory conduct not

62a
In addition to generally prohibiting discrimination
that deprives persons with disabilities of the full use
and enjoyment of public facilities, section 121.003(d)
further defines the types of conduct that violate the
THRC, including “a failure to . . . make reasonable
accommodations in policies, practices, and procedures”
and a failure to “provide auxiliary aids and services
necessary to allow the full use and enjoyment of the
public facility,” among others. TEX. HUM. RES. CODE
§ 121.003(d)(2), (3). By using the term “reasonable
accommodations,” the Legislature accepted that accommodations may be either reasonable or unreasonable, and by using the term “aids and services
necessary,” the Legislature accepted that the use of
auxiliary aids or services may be either necessary or
unnecessary. See id. And by defining the prohibited
discrimination with the “reasonable” and “necessary”
limitations, the Legislature demonstrated its intent
that failure to make unreasonable accommodations
and failure to provide unnecessary aids and services
would not constitute “discrimination” within the meaning of the THRC. With that in mind, section 121.003(d)
can only be read to mean that excluding a person with
a disability from full use and enjoyment of a plasma
collection center’s donation process will not automatically constitute discrimination prohibited by section
121.003. See id. § 121.003. While the parties do not
disagree with this conclusion, they disagree about the
particular circumstances in which a plasma collection
center can reject a person with a disability from donating plasma, without running afoul of the discrimination prohibition in section 121.003.
violate the THRC. See Act of May 22, 1997, 75th Leg., R.S., ch.
649, § 4, sec. 121.003, 1997 Tex. Gen. Laws 2219, 2220 (amended
2013) (current version at TEX. HUM. RES. CODE § 121.003(d)).

63a
Unlike the ADA, the THRC is not explicit in laying
out such circumstances. But just as the THRC indicates a clear legislative intent to allow discrimination
under some circumstances, it also indicates legislative
intent that the circumstances under which discriminatory conduct can be lawful be similar to the ADA.11 We
have utilized comparable federal law as guidance in
situations where our state statute and the federal law
contain analogous statutory language. See, e.g., Chatha,
381 S.W.3d at 505 (citing Specialty Retailers, Inc. v.
DeMoranville, 933 S.W.2d 490, 492 (Tex. 1996) (per
curiam)). And we construe statutory terms considering
the context in which they are used, not in isolation. See
Paxton, 468 S.W.3d at 59 (citation omitted); cf. Ojo v.
Farmers Grp., Inc., 356 S.W.3d 421, 433 (Tex. 2011)
(utilizing the context of the Legislature’s awareness of
the potential for disparate impact discrimination in
the insurance context, and its deliberate decision not
to exact an express prohibition on disparate impact
discrimination in the Texas Insurance Code, to support the Court’s conclusion that the Legislature did
not intend to create a cause of action for disparate
impact discrimination in the insurance context). This
Court in Beeman declined to recognize a statutory
exception based on a federal statute that was not
11

In fact, the House Human Services Committee Report addressing the bill that was ultimately enacted to amend certain THRC
provisions after Congress enacted the ADA stated that the legislation’s purpose was to enact “revisionary language [that] conforms with the terminology in the [ADA].” House Comm. on
Human Servs., Bill Analysis, Tex. H.B. 2525, 75th Leg., R.S.
(1997). A Bill Analysis, prepared by the Senate Research Center,
similarly explained that the “‘clean up’ revisions proposed by the
committee would conform Section 121, Human Resources Code,
to the terminology in the [ADA].” Senate Research Ctr., Bill
Analysis, Tex. H.B. 2525, 75th Leg., R.S. (1997).

64a
analogous, implying that it is not improper to apply an
analogous federal statute as an exception to our laws.
468 S.W.3d at 543 (“[T]he definition of ‘public facilities’
in Chapter 121 has no similar counterpart in the ADA.
Therefore, we look only to the text of chapter 121 and
not to cases interpreting the federal act.” (citation
omitted)). In the context of the ADA’s standards that
allow for lawful discrimination under certain circumstances—some of which were enacted before the THRC’s
recent amendments—and given the Legislature’s choice
of terminology, we interpret the THRC to allow for
some lawful discrimination not inconsistent with the
ADA. See generally 42 U.S.C. § 12182(b)(2)(A)(i)–(iii).
Cognizant of the fact that the Legislature enacted
some of the discrimination standards in section 121.003
after Congress enacted the ADA, and that the purpose
of the THRC aligns with the ADA’s purpose, we find
the ADA and the case law interpreting it helpful in
analyzing the circumstances under which a public
facility may lawfully discriminate by depriving a person with a disability of full use and enjoyment of the
facility. See Grady v. City of Fort Worth, No. 4:00-CV1871-A, 2002 WL 63010, at *3 n.2 (N.D. Tex. Jan. 8,
2002) (“[I]n interpreting Texas antidiscrimination
laws, Texas courts consider how federal statutes
covering similar subjects are implemented.” (citing
Caballero v. Cent. Power & Light Co., 858 S.W.2d 359,
361 (Tex. 1993)); see also 42 U.S.C. § 12132 (providing
the purpose that “no qualified individual with a disability shall, by reason of such disability, be excluded
from participation in or be denied the benefits of the
services, programs, or activities of a public entity, or
be subjected to discrimination by any such entity”).
We observe that the THRC’s structure is similar to
the ADA’s as to prohibited discrimination. Compare 42

65a
U.S.C. § 12182 (applying to public accommodations),
with TEX. HUM. RES. CODE § 121.003 (applying to public facilities). Like the THRC standards, the ADA standards begin with a general rule that “[n]o individual shall
be discriminated against on the basis of disability in
the full and equal enjoyment” of a place subject to the
statute. Compare 42 U.S.C. § 12182(a), with TEX. HUM.
RES. CODE § 121.003(a). The ADA then sets out general prohibitions and specific prohibitions. 42 U.S.C.
§ 12182(b)(1), (b)(2). Under the specific prohibitions, the
ADA defines “discrimination” with a list of what
discrimination “includes.” See id. § 12182(b)(2)(A)(i)–(v).
Within each definition of “discrimination,” the ADA
carves out specific exceptions to prohibited discrimination—that is, while defining unlawful discrimination,
the ADA also defines what sort of discriminatory
conduct is not prohibited. See id. Similarly, the THRC’s
structure begins with section 121.003(a)’s general rule
and then defines “discrimination” with a list of what
the discrimination prohibited by the THRC “includes.”
TEX. HUM. RES. CODE § 121.003(a), (d). The THRC
then sets out prohibitions on discrimination. See id.
§ 121.003(d)(1)–(3). However, in setting out these
prohibitions, the THRC merely implies that there are
exceptions to discrimination under the THRC, rather
than explicitly providing such exceptions as the ADA
does. As explained above, the statutory language
indicates that the Legislature intended for there to be
exceptions to the THRC’s definition of “discrimination.” Based on the ADA’s congruent structure and
analogous purpose, we find the ADA helpful in
determining the specific exceptions to the THRC’s
prohibited discrimination, as the Legislature intended.

66a
The ADA provides that discrimination includes:
(i) the imposition or application of eligibility
criteria that screen out or tend to screen out
an individual with a disability or any class of
individuals with disabilities from fully and
equally enjoying any goods, services, facilities, privileges, advantages, or accommodations, unless such criteria can be shown to be
necessary for the provision of the goods, services, facilities, privileges, advantages, or
accommodations being offered;
(ii) a failure to make reasonable modifications in policies, practices, or procedures,
when such modifications are necessary to
afford such goods, services, facilities, privileges, advantages, or accommodations to
individuals with disabilities, unless the entity
can demonstrate that making such modifications would fundamentally alter the nature of
such goods, services, facilities, privileges, advantages, or accommodations;
(iii) a failure to take such steps as may be
necessary to ensure that no individual with a
disability is excluded, denied services, segregated or otherwise treated differently than
other individuals because of the absence of
auxiliary aids and services, unless the entity
can demonstrate that taking such steps would
fundamentally alter the nature of the good,
service, facility, privilege, advantage, or
accommodation being offered or would result
in an undue burden . . . .
42 U.S.C. § 12182(b)(2)(A)(i)–(iii) (emphasis added).
Likewise, the THRC provides that persons with disa-

67a
bilities may not be deprived of the full use and enjoyment of a public facility, and the statute sets out
similar specific prohibitions, while using language
that contemplates the existence of exceptions. See TEX.
HUM. RES. CODE § 121.003.
Section 12182(b)(2)(A)(i) of the ADA, in particular,
is relevant in illustrating how we may draw on the
ADA in interpreting the THRC. That ADA provision
prohibits certain conduct that constitutes discrimination within the meaning of the ADA—the imposition
or use of eligibility criteria that screens out persons
with disabilities and deprives them of full use and
enjoyment—but it explains that “discrimination includes [such conduct] unless” the use of such criteria
is necessary to providing the services being offered.
See 42 U.S.C § 12182(b)(2)(A)(i). Thus, under this
provision, a defendant’s conduct may be lawful if it
either does not meet the definition of “discrimination”
or if it satisfies the exception. See Emery v. Caravan of
Dreams, Inc., 879 F. Supp. 640, 644 (N.D. Tex. 1995)
(holding that the defendant’s policy of allowing
smoking in all areas of its theater did not meet the
definition of “discrimination” in the ADA’s eligibility/screening provision, and that it met the exception
in the ADA’s modification provision). Although the
Texas Legislature declined to provide explicit exceptions to the prohibited discrimination in section
121.003 of the THRC, we note that the Legislature
amended the THRC after the ADA was enacted, adopting similar terminology, and the Legislature has amended the THRC numerous times since, each time leaving
in place the relevant parallels to the ADA. See Acker
v. Tex. Water Comm’n, 790 S.W.2d 299, 301 (Tex. 1990)
(reciting the presumption that the Legislature knows
the existing law when it enacts a statute). We believe
the Legislature intended section 121.003 and its

68a
“includes” definition of “discrimination” to reflect the
discriminatory conduct exceptions in the ADA, including an exception that would allow a defendant to exclude
a person with a disability from full use and enjoyment
of a public facility when utilization of eligibility criteria
that screens out certain persons with disabilities is
necessary to the defendant’s provision of services. See
generally TEX. HUM. RES. CODE § 121.003(d)(1)–(3).
The plaintiffs look to the THRC’s reference to “reasonable accommodations” in THRC section 121.003(d)(2)
as the basis for their proposed lawful discrimination
standard, arguing that although the term is not
defined in the THRC, it must be interpreted to have a
meaning similar to that in the ADA’s modification
provision, particularly because the Legislature added
this language after the enactment of the ADA. See
generally 42 U.S.C. § 12182(b)(2)(A)(i)–(iii). By extension, the plaintiffs assert that this understanding of
“reasonable accommodation” should inform the standard the Court provides in answering the second
certified question, which asks not about claims under
the reasonable accommodation provision, but under
the general prohibition against deprivation of full use
and enjoyment. Without attempting to delineate or
define the parameters around what constitutes a
“reasonable” modification under the ADA, we recognize that a defendant will not be liable under the ADA
for refusal to make an unreasonable modification
in policies, practices, or procedures. See 42 U.S.C.
§ 12182(b)(2)(A)(ii); e.g., McCoy v. Tex. Dep’t of Criminal
Justice, No. C-05-370, 2006 WL 2331055, at *9–10 (S.D.
Tex. Aug. 9, 2006) (holding that a prison did not
unlawfully discriminate against an asthmatic prisoner
by refusing to provide alternative housing, when there
was no conclusive showing of a reasonable housing
alternative or that some other accommodation would

69a
have been reasonable). Nor will a defendant be liable
under the ADA for refusal to make a modification that
may be reasonable but would fundamentally alter
the nature of the service it provides. See 42 U.S.C.
§ 12182(b)(2)(A)(ii) (providing an exception when “the
entity can demonstrate that making such modifications would fundamentally alter the nature of such
goods, services, facilities, privileges, advantages, or
accommodations”). We likewise read the THRC’s use
of “reasonable accommodations” to mean that a public
facility may lawfully refuse unreasonable accommodations or accommodations that would fundamentally
alter the nature of its goods, services, or facilities. See
TEX. HUM. RES. CODE § 121.003(d)(2).
Similarly, a defendant will not be liable under the
ADA for refusal to provide auxiliary aids and services
that are not necessary to ensure that persons with
disabilities are not treated differently from others. See
42 U.S.C. § 12182(b)(2)(A)(iii). Nor will a defendant be
liable under the ADA for refusal to provide necessary
auxiliary aids or services when doing so would
fundamentally alter the nature of services it provides
or would create an undue burden. See id. (providing an
exception when “the entity can demonstrate that taking such steps would fundamentally alter the nature
of the good, service, facility, privilege, advantage, or
accommodation being offered or would result in an
undue burden”); Greer v. Richardson Indep. Sch. Dist.,
472 F. App’x 287, 291–92 (5th Cir. 2012). We likewise
read the THRC’s auxiliary aids and services provision
to mean that a public facility defendant may lawfully
refuse unnecessary auxiliary aids and services or auxiliary aids or services that would fundamentally alter
the nature of its goods, services, or facilities, or would
create an undue burden. See TEX. HUM. RES. CODE
§ 121.003(d)(3).

70a
Moreover, the ADA specifically provides that nothing in the ADA “shall require an entity to permit an
individual to participate in or benefit from the goods,
services, facilities, privileges, advantages and accommodations of such entity where such individual poses
a direct threat to the health or safety of others.” 42
U.S.C. § 12182(b)(3). The direct-threat exception is
utilized as a general affirmative defense to any claim
for discrimination. See, e.g., Bench v. Six Flags Over
Tex., Inc., 3:13-CV-705-P, 2014 WL 12586743, at *4–5,
*8–9 (N.D. Tex. July 7, 2014) (citations omitted). A
“direct threat” is “a significant risk to the health or
safety of others that cannot be eliminated by a modification of policies, practices, or procedures or by the
provision of auxiliary aids or services.” 42 U.S.C.
§ 12182(b)(3) (emphasis added); see Doe v. County of
Centre, 242 F.3d 437, 447 (3d Cir. 2001) (citing 42
U.S.C. § 12182(b)(3); Sch. Bd. of Nassau Cty. v. Arline,
480 U.S. 273, 287 n.16 (1987)). And “[t]he existence, or
nonexistence, of a significant risk must be determined
from the standpoint of the person who refuses the
[modification] or accommodation, and the risk assessment must be based on medical or other objective
evidence.” Bragdon v. Abbott, 524 U.S. 624, 649 (1998)
(citation omitted). Just as establishment of the directthreat affirmative defense excuses a defendant from
liability for discrimination under the ADA, we hold
that a defendant will not be liable for discrimination
under the THRC when allowing a person with a disability to participate in or use the defendant’s services
or facilities would pose a direct threat to the health or
safety of others. See Bench, 2014 WL 12586743, at *5
n.12 (accepting the defendant’s argument that ADA
claims and THRC claims “rise and fall together,” and
concluding that an affirmative defense under the ADA
also makes discrimination lawful under state law). In

71a
sum, we hold that a defense or exception that would
excuse a defendant from discrimination liability under
the ADA—whether it be because of a direct threat,
undue burden, fundamental alteration, or necessity of
eligibility criteria—would also exclude a public facility
defendant from liability under the THRC.
The question certified to this Court asks specifically
about deprivation of full use and enjoyment of a public
facility under section 121.003(a). Section 121.003(d)
references section 121.003(a) in referring to “discrimination prohibited by this section.” See TEX. HUM. RES.
CODE § 121.003(a), (d). So a claim under section
121.003(a) that a person with a disability has been
unlawfully deprived of full use and enjoyment of a
public facility also constitutes a claim under section
121.003(d) that the individual was refused use of a
public facility—as both section 121.003(a) and (d)
prohibit depriving a person with a disability from use
of a public facility. Therefore, to the extent that section
121.003(d) contemplates lawful discrimination and
excuses the exclusion of persons with disabilities from
use of public facilities, these exceptions allowing for
lawful discrimination extend to claims under section
121.003(a). And to the extent that the plaintiffs here
allege claims under section 121.003(a) relating to CSL’s
rejection of them as plasma donors, their complaints
should be construed to also allege claims under the
parallel part of section 121.003(d).12

12

We express no opinion as to whether Silguero’s and Wolfe’s
complaints also allege claims as to pretextual reasons for rejecting them and thus depriving them of the opportunity to donate
plasma and receive compensation, or claims as to the failure to
make reasonable accommodations as to a policy, practice, or
procedure. The record before us does not contain their complaints, and we are therefore limited by the information the Fifth

72a
Generally, a plaintiff alleging a THRC discrimination claim has the burden to establish that the defendant discriminated against the plaintiff due to the
plaintiff’s disability, and the plaintiff must satisfy that
burden by a preponderance of the evidence. See Tex.
State Hotel, Inc. v. Heagy, 650 S.W.2d 503, 504–05
(Tex. App.—Houston [14th Dist.] 1983, no pet.) (holding that a blind plaintiff claiming a violation of the
THRC failed to prove by a preponderance of the
evidence that the defendant discriminated against
him because he was blind). Analogous employment
discrimination cases are relevant here in articulating
the burden under the THRC. See, e.g., Davis v. City of
Grapevine, 188 S.W.3d 748, 758–59 (Tex. App.—Fort
Worth 2006, pet. denied), abrogated on other grounds
by Lujan v. Navistar, Inc., 555 S.W.3d 79, 87 (Tex.
2018)); see also McDonnell Douglas Corp. v. Green, 411
U.S. 792, 802 (1973) (setting out the applicable
burdens in the employment discrimination context). In
the context of ADA claims for discrimination as to
public accommodations, a defendant is not liable when
the defendant’s conduct does not meet the applicable
ADA definition of “discrimination,” when an exception
is satisfied, or when the defendant proves the directthreat affirmative defense. See Bench, 2014 WL
12586743, at *8. We see no reason, and no authority,
for a different framework for claims under the THRC.
We hold that a defendant’s exclusion of a person
with a disability from full use and enjoyment of a
Circuit has provided to us. We trust that the Fifth Circuit will
analyze each plaintiff’s complaint to determine exactly what
discrimination allegations each makes under section 121.003(d).
See Emery, 879 F. Supp. at 644 (analyzing the case as if the
plaintiff had brought a reasonable accommodations claim, based
on the nature of the plaintiff’s argument).

73a
public facility, including services provided at the
public facility, does not run afoul of the THRC’s broad
discrimination prohibition in section 121.003(a) when:
(1) the defendant’s conduct does not meet the definition of “discrimination” contemplated by the THRC or
satisfies an exception, such as the exclusion that allows
a defendant to use eligibility or screening criteria that
exclude persons with disabilities from full use and
enjoyment when such criteria are shown to be necessary for the provision of services; or (2) the defendant
establishes that allowing the person full use and
enjoyment of the public facility would pose a direct
threat to the health or safety of others. See 42 U.S.C.
§ 12182(b)(2)(A)(i) (providing the equivalent standard
for ADA claims relating to deprivation of full use and
enjoyment of a facility via eligibility criteria that screen
out persons with disabilities); id. § 121282(b)(2)(A)(i)–
(iii) (setting out definitions of discriminatory conduct
and exceptions); id. § 121282(b)(3) (setting out the
direct-threat affirmative defense).
V. Conclusion
The Legislature broadly defined “public facility.” A
commercial establishment that invites the general
public into its doors for the opportunity to do business
falls within the THRC’s definition of “public facility.”
Therefore, we answer the first certified question in the
affirmative—that a plasma collection center, such as
those operated by CSL, is a “public facility” under the
THRC. The ADA’s analogous provisions are informative as to the standards by which a facility may
lawfully discriminate on the basis of a disability.
Based on the plain language of the THRC and the
relevant provisions of the ADA, we conclude that the
Legislature intended the THRC to encompass exceptions to the requirement that persons with disabilities

74a
be afforded full use and enjoyment of a public facility
to the same extent as the general public. We answer
the second certified question that a defendant’s exclusion of a person with a disability from full use and
enjoyment of a public facility does not run afoul of the
THRC’s broad discrimination prohibition when: (1) the
defendant’s conduct does not meet the THRC’s definition of “discrimination” or satisfies an exception to the
definition of “discrimination,” such as the exception for
use of eligibility criteria that screen out certain persons with disabilities, but are necessary for the public
facility’s provision of services; or (2) the defendant
establishes that allowing the person with a disability
full use and enjoyment of the public facility would pose
a direct threat to the health or safety of others. See 42
U.S.C. § 12182(b)(2)(A)(i)–(iii), (b)(3).
Paul W. Green
Justice
OPINION DELIVERED: June 28, 2019

75a
APPENDIX E
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
[Filed August 9, 2019]
————
No. 17-41206
————
D.C. Docket No. 2:16-CV-361
————
MARK SILGUERO,
Plaintiff-Appellant,
AMY WOLFE,
Intervenor-Appellant,
v.
CSL PLASMA, INCORPORATED,
Defendant-Appellee.
————
Appeal from the United States District Court for the
Southern District of Texas
————
JUDGMENT
Before KING, ELROD, and HAYNES, Circuit Judges.
This cause was considered on the record on appeal
and was argued by counsel.
It is ordered and adjudged that the judgment of the
District Court is affirmed in part, reversed in part and

76a
remanded to the District Court for further proceedings
in accordance with the opinion of this Court.
IT IS FURTHER ORDERED that each party bear
its own costs on appeal.

77a
APPENDIX F
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
————
No. 17-41206
————
MARK SILGUERO,
Plaintiff-Appellant,
AMY WOLFE,
Intervenor-Appellant,
v.
CSL PLASMA, INCORPORATED,
Defendant-Appellee.
————
Appeal from the United States District Court
for the Southern District of Texas
————
ORDER
Appellants have filed a motion to stay issuance of the
mandate pending filing of a petition for certiorari.
Appellee has declined to oppose or concur in the motion,
instead taking no position. The undersigned concludes
that it is appropriate to grant the stay to provide time
to file the petition but, thereafter, it should be denied
unless, of course, a stay is granted by the Supreme
Court. Accordingly,
IT IS ORDERED that the mandate in this case is
stayed for 90 days whereupon it should issue unless
stayed by the Supreme Court.

78a
Signed: 9-3-2019
/s/ Catharina Haynes
CATHARINA HAYNES
UNITED STATES CIRCUIT JUDGE

